<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]


 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              


                        WEDNESDAY, JUNE 21, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 3:05 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. James Lankford (chairman) 
presiding.
    Present: Senators Lankford, Kennedy, Rubio, Murphy, and Van 
Hollen.

                      CONGRESSIONAL BUDGET OFFICE

STATEMENT OF DR. KEITH HALL, DIRECTOR

              OPENING STATEMENT OF SENATOR JAMES LANKFORD

    Senator Lankford. Good afternoon, everybody. The 
subcommittee will come to order.
    I would like to welcome everyone to our second fiscal year 
2018 budget hearing for the agencies under the jurisdiction of 
the Legislative Branch Appropriations Subcommittee. Today, we 
have with us the director of Congressional Budget Office--CBO, 
as we affectionately call it around here--Dr. Keith Hall; and 
the head of the Government Accountability Office, Comptroller 
General Gene Dodaro. I appreciate the willingness of both of 
you to appear before the subcommittee, and I look forward to 
your testimony.
    We obviously received your written statements as well, and 
they are extensive.
    Total Congressional Budget Office request for fiscal year 
2018 is $49.9 million, an increase of $3.4 million above the 
fiscal year 2017 enacted level. This funding request supports 
the current full-time equivalent level of 237 and an additional 
four analysts devoted to the areas of healthcare policy, 
dynamic scoring requirements, and appropriations. It also 
includes funding required to move CBO's data center.
    The total GAO request for fiscal year 2018 is $590.7 
million, an increase of $46.2 million above fiscal year 2017 
enacted level. This funding request supports an increase in 
FTEs from 3,000 to 3,100, which will continue to progress 
towards GAO's multi-year plan to rebuild its staff capacity to 
an optimal level of 3,250.
    Each of your agencies provide vital support services to us 
as legislators. As the nonpartisan watchdog and the 
scorekeepers of legislation, your agencies provide reports, 
analysis, and information that can have very far-reaching 
policy implications. That analysis requires highly trained 
staff, a need which is reflected in both of your budget 
proposals.
    Personnel expenses account for more than 80 percent of your 
budgets, which creates a unique challenge in a year where 
available resources must be stretched among multiple 
priorities, and increases will be difficult to accommodate.
    Given this challenge, I do look forward to our discussion 
today, during which I hope to gain a better understanding of 
your agencies' priorities and the ongoing work you do.
    Now, I would like to turn to ranking member and friend, 
Senator Chris Murphy, for his opening remarks.

                STATEMENT OF SENATOR CHRISTOPHER MURPHY

    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you both for being here today.
    Let me just note that both of our thoughts are obviously 
with our colleague and those others who were shot and 
terrorized on a baseball field not far from here. Ironically, 
we were set that day to hold a hearing on the Capitol Police's 
budget and the Capitol Security budget, and that hearing now 
will be even more important. I appreciate the chairman's 
commitment to moving forward with that.
    I am glad to have your testimony here today. I share the 
chairman's interest. I will just note that GAO has been an 
indispensable partner to those of us who think it is our 
mission to be very careful with the dollars that our taxpayers 
send to Washington. Since 2006, GAO has helped provide $63 
billion in benefits for the Government. That is a rate of 
return that investors in my State would love, $112 in savings 
for every dollar invested in GAO, so it is a pretty good use of 
our taxpayer dollars to put it into your operations to keep 
spending honest.
    I am really glad to have Dr. Hall here today. I got to 
visit with him yesterday at GAO. And, Mr. Chairman, I think it 
is a really--excuse me, at CBO. It is really important to have 
CBO here today. I will just express my deep concern about the 
actions of the majority party in the House and the Senate with 
respect to the continued relevance and independence of the 
Congressional Budget Office. We do not just rely on CBO; our 
constituents rely on CBO. The only way that we are able to have 
a real meaningful debate in this country about the impact of 
legislation that affects people's lives is because of the 
nonpartisan analysis that CBO provides us.
    The House healthcare bill, which was rammed through with 
almost no public debate, with no time for any legislator to 
read that piece of legislation, was done so without a CBO 
score, and so hundreds of Members of Congress voted on a piece 
of legislation that reorders one-fifth of the American economy, 
that as we eventually found out, strips healthcare from up to 
23 million Americans without a nonpartisan analysis.
    And for those of us who believe in CBO, I think there is a 
deliberate campaign to try to reduce its relevance because why 
have CBO if you are not going to ask it to give its opinion on 
a piece of legislation that is that big and that sweeping ahead 
of the vote.
    Similarly, we are headed towards a potential debate and 
vote on a piece of legislation next week that is equally 
sweeping that none of us have seen, that theoretically CBO is 
working on today but may release their analysis with only a 
handful of hours or days prior to the vote. That is if the 
Senate majority decides to wait for their analysis before the 
vote.
    In addition, leading up to CBO's analysis of the House 
bill, there were some very sharp attacks on CBO from Members of 
Congress, attacks that, you know, got a little bit too personal 
at times. We should be investing in CBO's relevance by 
demanding that on major pieces of the legislation we see a CBO 
score before we vote, and we should refrain from compromising 
CBO's nonpartisanship and independence by trying to frame them 
in a political context. So, I think it is a really important 
moment for both of you to be here and particularly Dr. Hall, 
and I look forward to their testimony.
    Senator Lankford. Thank you. I look forward to the 
testimony as well.
    A quick side note on that, as you know, the Senate rules do 
not allow us to even take up a reconciliation bill without a 
CBO score, so there will most certainly be a score. It is my 
understanding the scoring will be available sometime before 
Monday. If you want to provide an update today on the process 
or timing for that, we would be happy to receive that.
    Now we are ready to receive your testimony, and we 
obviously have the written testimony already from both of you. 
Thank you for preparing that. Each of you have an opening 
statement time of approximately 5 minutes. If you fudge on that 
a few seconds, I think we will be okay one way or the other.
    Mr. Hall, or I should say Dr. Hall, since you earned it, we 
are glad to receive your statement.

                  SUMMARY STATEMENT OF DR. KEITH HALL

    Dr. Hall. Sure. Great. Chairman Lankford, Ranking Member 
Murphy, and Members of the subcommittee, thank you for the 
opportunity to present the Congressional Budget Office's budget 
request for fiscal year 2018.
    CBO was established in 1974, and its mission is an 
important one: to provide nonpartisan budgetary and economic 
analysis that is timely and carefully thought out in order to 
support the work of this subcommittee, and the Congress as a 
whole, as you address the critical issues facing the Nation.
    That mission is one that we all take very seriously. To 
fulfill its mission, CBO does a variety of things: We analyze 
trends and recent developments related to Federal spending and 
revenues; we prepare projections of budgetary and economic 
outcomes for the coming decade and reports describing them; we 
estimate the cost of legislative proposals; we examine the 
effects of the President's budgetary proposals and numerous 
alternative policy choices for the budget and the economy; we 
conduct policy studies of government activities that have 
significant budgetary and economic impact; and we provide 
testimony on a broad range of budget and economic issues.
    In 2016, for example, CBO produced multiple budget 
projections and economic forecasts, several hundred formal cost 
estimates and mandate statements, thousands of informal 
estimates, aimed at helping committees and Members to craft 
legislation, and more than 100 ``scorekeeping'' tabulations for 
appropriation acts. In addition, the agency released several 
dozen analytic reports and working papers.
    In carrying out its mission of serving the Congress during 
2017 and 2018, CBO will focus on meeting three goals: We will 
continue to provide the Congress with budget and economic 
information that is objective, insightful, and timely; we will 
continue to present and explain the methodology and results of 
CBO's analyses clearly, and pursuing opportunities to enhance 
the transparency of the agency's work; and we will continue to 
improve CBO's internal operations.
    CBO is asking for appropriations of $49.9 million for 
fiscal year 2018. That amount represents an increase of $3.4 
million, or 7.4 percent, from the $46.5 million provided to CBO 
for 2017. There are three reasons for requesting an increase.
    First, we must move our data center. CBO will need to spend 
$1.1 million in 2018 because of an unusual expense. Our primary 
data center currently resides in the House of Representatives' 
data center on the sixth floor of the Ford House Office 
Building. Because House Information Resources has decided to 
repurpose that facility, CBO must remove its IT equipment by 
the end of the next March. The Congress's offsite Alternative 
Computing Facility, which is currently CBO's backup data 
center, will become the agency's primary data center, and the 
agency will establish a new backup center at a different 
location.
    Second, the other costs of maintaining existing operations 
will be higher next year, requiring an additional $1.5 million. 
That amount includes $1.1 million for increases in personnel 
expenses, which would result from a small increase in 
employees' average salary and a rise in the cost of benefits. 
The remaining amount would be used to fund nonpersonnel 
expenses, mainly the upgrade of several cybersecurity systems.
    And third, CBO proposes to expand its analytical capacity, 
requiring about $800,000. That amount includes $500,000 for 
salary and benefits for four new FTEs. The additional FTEs 
would be devoted to healthcare analysis, scorekeeping for 
appropriation bills, and analyzing the economic effects of 
Federal tax and spending policies--work that would include the 
dynamic analysis of certain legislation, which is required by a 
recent budget resolution.
    Of course, interest in legislative proposals related to 
healthcare remains very great. As you know, the Congress is 
actively considering major legislation that would repeal, 
modify, or replace many provisions of the Affordable Care Act, 
and such activity has already significantly boosted CBO's 
workload.
    In addition to responding to that and other immediate 
legislative concerns, we are engaged in longer-term projects, 
analyzing various aspects of the healthcare system and 
enhancing our analytical capacity to assess the effects of 
legislation on that system and on the Federal budget.
    We are also anticipating a larger workload associated with 
appropriations--as analysts have been asked more often to work 
simultaneously on combinations of continuing resolutions, 
individual appropriation bills, omnibus appropriation bills, 
and supplemental appropriation bills. And we expect to further 
develop our capacity to conduct dynamic analysis in the coming 
year.
    In addition to those four new FTEs, CBO seeks additional 
resources--about $300,000--for creating additional on-site 
capacity to use sensitive data securely to meet the growing 
congressional demand for certain analyses.
    In closing, I would like to thank the Committee for its 
long-standing support of CBO. That support has allowed CBO to 
provide budgetary and economic analysis that is timely, 
thoughtful, and nonpartisan as the Congress addresses issues of 
critical importance. Thank you.
    [The statement follows:]
                  Prepared Statement of Dr. Keith Hall

  (See  the full report ``Testimony, CBO's Appropriation Request for 
     Fiscal Year 2018'' in the appendix at the end of the hearing.)

    Chairman Lankford, Ranking Member Murphy, and Members of the 
subcommittee, thank you for the opportunity to present the 
Congressional Budget Office's budget request. CBO is asking for 
appropriations of $49.9 million for fiscal year 2018. That amount 
represents an increase of $3.4 million, or 7.4 percent, from the $46.5 
million provided to CBO for 2017. Of the total amount, nearly 90 
percent would be used for personnel costs.
             reasons for the requested increase in funding
    There are three reasons for requesting an increase. CBO must move 
its data center; the other costs of maintaining existing operations 
will be higher next year; and the agency proposes to expand its 
analytical capacity.
Moving the Data Center
    CBO will need to spend $1.1 million in 2018 because of an unusual 
expense. The agency's primary data center currently resides in the 
House of Representatives' data center on the sixth floor of the Ford 
House Office Building. Because House Information Resources has decided 
to repurpose that facility, CBO must remove its information technology 
(IT) equipment by March 2018. The Congress's off-site Alternate 
Computing Facility, which is currently CBO's backup data center, will 
become the agency's primary data center, and the agency will establish 
a new backup center at a different location.
    The move is projected to result in a onetime expenditure of $1.1 
million (and in recurring lease and maintenance costs in later years). 
About $0.2 million of the onetime cost will be incurred in fiscal year 
2017, delaying other important IT projects. In 2018, a cost of $0.9 
million will be incurred for moving the data center, as will a cost of 
$0.2 million for the delayed projects. If CBO does not receive funding 
for the relocation, the agency will be forced to pay for it by cutting 
back on the size of its staff and providing less information and 
analysis to the Congress.
Maintaining Other Existing Operations
    CBO requests an increase of $1.5 million to fund existing 
operations in 2018. That amount includes $1.1 million for increases in 
personnel expenses, which would result from a small increase in 
employees' average salary and a rise in the cost of benefits. An 
additional $0.4 million would be used to fund nonpersonnel expenses, 
mainly the upgrade of several cybersecurity systems that are vital to 
the agency's mission but nearing the end of their life cycle and the 
renewal of long-term maintenance support for other major cybersecurity 
systems. As with the previous item, if funding is not provided, CBO 
will need to shrink its staff and provide less information and analysis 
to the Congress.
Expanding Analytical Capacity
    CBO proposes to add four new analysts in 2018 and to create 
additional on-site capacity to use sensitive data securely. The total 
cost of those additions would be $0.8 million.
    Adding four full-time-equivalent positions (FTEs) would cost $0.5 
million for salary and benefits. The additional FTEs would be devoted 
to healthcare analysis, scorekeeping for appropriation bills, and 
analyzing the economic effects of Federal tax and spending policies 
(work that would include the dynamic analysis of certain legislation, 
which is required by a recent budget resolution). Congressional 
interest remains high in modifying or replacing the Affordable Care Act 
and changing Medicare or Medicaid. CBO is also anticipating a larger 
workload associated with appropriations and is aiming to respond to 
requests for information more quickly. And CBO expects to further 
develop its capacity to conduct dynamic analysis in the coming year.
    About $0.3 million would fund expansions of on-site capacity to 
securely use sensitive data, such as data from the Internal Revenue 
Service, the Social Security Administration, and other agencies. That 
capacity would help CBO meet growing demand from the Congress for 
analysis that draws on such data to understand changes in earnings, 
marriage, mortality, and other factors affecting benefits, tax 
revenues, and other parts of the Federal budget. The additional 
resources would make access to such data speedier and more consistent, 
increasing the quality and timeliness of CBO's work.
   cbo's budget request and its consequences for staffing and output
    In fiscal year 2018, CBO will continue its mission of providing 
objective, insightful, timely, and clearly presented budgetary and 
economic information to the Congress. The $49.9 million in funding that 
CBO requests would be used for personnel costs (that is, salaries and 
benefits), IT, and other costs, such as training.
Funding Request for Personnel Costs and Consequences for Staffing
    CBO requests $44.3 million for salary and benefits, which equals 89 
percent of its funding request. Those funds would support 241 FTEs. The 
requested amount represents an increase of $1.6 million, or 4 percent. 
Of the total requested amount:
  --$33.0 million would cover salaries for personnel--an increase of 
        $1.4 million, or 5 percent, from the amount that will be spent 
        in fiscal year 2017. The increase would cover $0.4 million in 
        pay for four additional analysts, as well as performance-based 
        salary increases for current staff and an across-the-board 
        increase of 2.4 percent for employees earning less than 
        $100,000 (if such an increase is authorized for executive 
        branch agencies).
  --$11.4 million would fund benefits for personnel--an increase of 
        $0.2 million, or 2 percent, from the amount projected to be 
        spent in 2017. The increase would cover a boost in the cost of 
        Federal benefits, as well as benefits for the four additional 
        analysts.
Funding Request for Nonpersonnel Costs
    CBO requests $5.6 million for costs other than personnel, which 
equals 11 percent of its funding request. Those funds would cover 
current IT operations--such as software and hardware maintenance, 
software development, commercial data purchases, communications, and 
equipment purchases--and would pay for travel, training, interagency 
agreements, facilities support, printing and editorial support, expert 
consultants, financial management auditing support, and subscriptions 
to library services. The requested amount represents an increase of 
$1.8 million, or 47 percent.

    Of the increase, $1.1 million would fund two non-recurring IT 
costs:

  --Required relocation of CBO's data center ($908,500) and
  --IT cybersecurity projects that are expected to be delayed because 
        of the 2017 costs of that relocation ($200,000).

    An additional $0.7 million of the increase would allow CBO to fund:

  --The upgrade of several cybersecurity systems that are vital to the 
        agency's mission and the renewal of long-term maintenance 
        support for other major cybersecurity systems ($385,000, a 
        small portion of which results from price increases for current 
        IT contracts) and
  --The costs of creating additional on-site capacity to use sensitive 
        data securely ($315,000).
Consequences for Output
    The requested amount of funding would allow CBO to provide the 
following estimates and other analyses to the Congress:
  --More than 600 formal cost estimates, most of which will include not 
        only estimates of Federal costs but also assessments of the 
        cost of mandates imposed on State, local, and Tribal 
        governments or the private sector;
  --Thousands of preliminary, informal cost estimates, the demand for 
        which is very high as committees seek a clear picture of the 
        budgetary impact of proposals and variants of proposals before 
        they formally consider legislation;
  --More than 100 scorekeeping tabulations, including account-level 
        detail for individual appropriation acts at all stages of the 
        legislative process, as well as summary tables showing the 
        status of discretionary appropriations (by appropriations 
        subcommittee) and running totals on a year-to-date basis;
  --About 60 analytic reports and papers--generally required by law or 
        prepared in response to requests from the Chairmen and Ranking 
        Members of key committees--about the outlook for the budget and 
        the economy, major issues affecting that outlook under current 
        law, the budgetary effects of policy proposals that could 
        change the outlook, and a broad range of related budget and 
        economic topics in such areas as defense policy, 
        infrastructure, and energy policy;
  --Numerous files of data documenting detailed 10-year baseline budget 
        projections, 10-year economic projections, long-term budget 
        projections (spanning 30 years), and other information 
        underlying analytic reports--all of them posted on CBO's 
        website; and
  --Descriptions of policy options that would reduce budget deficits 
        and publications that increase the transparency of CBO's work 
        and communicate about that work graphically.
    Despite high productivity by a dedicated staff, CBO expects that 
the anticipated volume of estimates and other analyses will fall 
considerably short of the number of congressional requests. The demands 
on the agency remain intense. For example, the workload associated with 
the analysis of appropriations has risen; the Congress remains acutely 
interested in analyses of the Affordable Care Act and numerous 
proposals for further changes in Federal healthcare programs; and the 
now-required dynamic analyses of how certain legislative proposals 
would affect the economy and how those economic effects would, in turn, 
affect the Federal budget require complex modeling. Other issues arise 
frequently and create a heavy demand for analysis: Over the past year, 
for example, CBO analyzed legislation related to the privatization of 
the air traffic control system, sentencing reform, trade facilitation 
and the enforcement of certain trade laws, child nutrition programs, 
child welfare programs, and Puerto Rico's debt crisis. Analyzing the 
possibilities and proposals has strained the agency's resources in many 
areas. CBO regularly consults with committees and Congressional 
leadership to ensure that its resources are focused on the work that is 
of highest priority to the Congress.
    In closing, I would like to thank the Committee for its long-
standing support of CBO. That support has allowed CBO to provide 
budgetary and economic analysis that is timely, thoughtful, and 
nonpartisan as the Congress addresses issues of critical importance.

    ----------------------------------------------------------------

    This testimony summarizes information in CBO's budget request for 
fiscal year 2018, which was written by Leigh Angres, Theresa Gullo, 
Deborah Kilroe, Cierra Liles, Terry Owens, Stephanie Ruiz, and Mark 
Smith, with guidance from Joseph E. Evans, Jr.
    The testimony was reviewed by Mark Hadley, Jeffrey Kling, and 
Robert Sunshine. Benjamin Plotinsky edited the testimony, and Jorge 
Salazar prepared it for publication. An electronic version is available 
on CBO's website at www.cbo.gov/publication/52785.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Keith Hall
Director
June 2017

    ----------------------------------------------------------------

    Senator Lankford. Thank you. Mr. Dodaro.

                    GOVERNMENT ACCOUNTABILITY OFFICE

STATEMENT OF HON. GENE DODARO, COMPTROLLER GENERAL

                      2018 BUDGET REQUEST OPENING

    Mr. Dodaro. Thank you very much, Mr. Chairman.
    Good afternoon to you, Ranking Member Senator Murphy, 
Senator Van Hollen. I appreciate the opportunity to discuss 
GAO's budget request for fiscal year 2018.
    We appreciate the subcommittee's support of GAO. We believe 
that we have returned that confidence that you have established 
in us with a handsome return on your investment.
    As Senator Murphy mentioned, last year, we returned $112 in 
financial benefits for every dollar invested in GAO. The 
Consolidated Appropriations Act for 2017 contains dozens of 
references to GAO's work for agencies to implement our 
recommendations. The Act also require agencies to report on the 
progress they have made in our past recommendations that 
Congress has directed them to implement and it actually reduced 
spending in a number of areas that reference our work.

                        OVERLAP AND DUPLICATION

    The work that we have done on overlap, duplication, 
fragmentation, cost-savings, and revenue enhancements in the 
Federal Government has yielded $136 billion in financial 
benefits. GAO's work has helped the Congress avoid 
sequestration since 2013 and the last 4 years by implementing a 
number of recommendations that make smart budget cuts with 
minimal effects on people or programs, as opposed to the 
across-the-board cuts called for by the sequester. The last 
Bipartisan Budget Act included over $30 billion in savings as a 
result of GAO's work.

                               HIGH RISK

    Our high-risk work series, identifies the most difficult 
problems facing the Federal Government from a management 
perspective. Over the last decade, there has been over $240 
billion saved as a result of our high-risk work. High-risk work 
also provides the types of recommendations that GAO makes to 
strengthen public safety and security, and improve vital 
programs and operations. This includes everything from the 
Veterans Administration healthcare, Medicare, Medicaid, 
cybersecurity issues, oversight and safety of medical products 
and food safety, as well as the assessing and controlling toxic 
chemicals. Our work also has nonfinancial benefits that are 
significant in terms of strengthening government operations for 
the benefit of the American people.
    Our request for fiscal year 2018 enables us to continue to 
do this work. As referenced, Mr. Chairman, in your opening 
statement, we would like 100 additional full-time equivalent 
positions. I believe that will enable us to address a growing 
problem of billions of dollars in improper payments in the 
Federal Government. Last year, these payments exceeded $140 
billion. That is an understatement. Additionally GAO will 
address the yawning tax gap, a difference of about $400 billion 
on an annual basis between taxes owed and taxes that are 
collected by the Federal Government.

                         SCIENCE AND TECHNOLOGY

    GAO has also been asked to do more work in science and 
technology areas, particularly since the Congress no longer has 
the Office of Technology Assessment to provide those services. 
We have been doing that more and more. There are rapidly 
evolving issues in that area, diagnostic techniques for 
emerging diseases, security concerns from the internet of 
things beyond the information system security concerns that 
already exist, dealing with nuclear waste cleanup technologies 
that could help the Government do more to clean up hazardous 
materials at a cheaper cost.

                     GAO INFRASTRUCTURE TECHNOLOGY

    And then also, we need to make some investments in our IT 
infrastructure. It is aging. In fact, the average equipment 
that we have, is about 7 years beyond the useful life. We need 
to replace it over time. We plan to merge our telephone and our 
computer operations. That will save money over time by using 
Voice over Internet Protocols.
    We made a prudent budget request. GAO is a solid investment 
for the Congress with great returns. I know that you will give 
careful consideration to our request. I understand the 
limitations very well. As an auditor of the Federal 
Government's financial statements, I know the challenges you 
are confronting. We have made our request in good faith. It 
will be a good return on that investment, and I look forward to 
answering your questions.
    [The statement follows:]
               Prepared Statement of Hon. Gene L. Dodaro

(See  the full report GAO-17-604T, ``Testimony Before the Subcommittee 
 on the Legislative Branch, Committee on Appropriations, U.S. Senate'' 
              in the appendix at the end of the hearing.)

    Chairman Lankford, Ranking Member Murphy, and Members of the 
subcommittee:

    On behalf of the U.S. Government Accountability Office (GAO), thank 
you for the opportunity to discuss our fiscal year 2018 budget request. 
I also appreciate the confidence this subcommittee has shown in GAO by 
supporting our efforts to serve Congress and improve government 
performance, accountability, and transparency.
    Since 2014, Congress has provided funding that has resulted in 
GAO's work achieving $192.5 billion in financial benefits and 3,808 
other improvements in government programs and operations. GAO also 
provided 357 testimonies to dozens of Congressional Committees over 
this time period. Even with this record of success, much work remains 
to be done to improve government performance and accountability and 
help Congress address its highest priorities. Our fiscal year 2018 
budget submission was formulated keeping in mind the constrained budget 
environment in which the government operates.
    GAO's fiscal year 2018 budget requests $618.2 million in 
appropriated funds to enable GAO to bolster our staff capacity to 
better serve the Congress. With a return of $112 for every dollar 
invested in GAO in fiscal year 2016, GAO is an exceptional investment. 
Last fiscal year alone, our work generated over $63 billion in 
financial benefits and 1,234 program and operational improvements 
across government.
    Our fiscal year 2018 budget request is focused on maintaining 
sufficient staff so that GAO will be better positioned to help Congress 
meet its oversight responsibilities. The funding requested will also 
enable us to make critical information technology investments that 
improve our productivity and work product.
                    fiscal year 2018 budget request
    In fiscal year 2016 GAO's work resulted in a return of $112 for 
every dollar invested in GAO, generating over $63 billion in financial 
benefits to the Federal Government. Implementation of GAO's 
recommendations led to 1,234 program and operational improvements 
across the Federal Government including many important contributions to 
enacted budget, appropriations and authorization legislation. GAO 
reports contained more than 2,000 recommendations across a vast array 
of areas to foster government efficiency, effectiveness, and 
responsiveness on high priority challenges facing Congress and the 
Nation.
    Congress used GAO's work to improve agency operations and generate 
billions in savings. These will result in improved program efficiencies 
and services through implementation of GAO's recommendations, including 
such areas as DoD acquisitions and financial management, services to 
veterans, management of IT systems, and fraud detection.
    GAO also continues to draw attention to issues facing Congress and 
the Nation by producing regular updates based on our bodies of work. In 
February 2017 we issued our biennial high risk report updating Congress 
on progress made on the 32 areas identified in 2015 and added 3 new 
areas: (1) Improving Federal Programs that Serve Tribes and their 
Members; (2) the 2020 Decennial Census; and (3) U.S. Government 
Environmental Liabilities. In April we issued our seventh annual report 
on fragmentation, overlap and duplication among Federal programs and 
opportunities to reduce government operations costs or enhance 
revenues. It identified 79 new actions that Congress and executive 
branch agencies can take to improve government efficiency and 
effectiveness. Progress in addressing the 645 actions identified in the 
six previous years resulted in roughly $136 billion in financial 
benefits.
    GAO is requesting a fiscal year 2018 appropriation of $618.2 
million to continue to address congressional priorities, and fulfill 
our mission. This will support a staffing level of 3,100 full-time 
equivalents (FTE). We expect to offset our funding needs with $27.5 
million in reimbursements from program and financial audits, as well as 
rental income, resulting in a net appropriation request of $590.7 
million.
    In planning fiscal year 2018 resources, GAO recognized several key 
areas that merit increased attention as additional staffing is made 
available. Focus in these areas will provide long term benefits to the 
Nation. They include identifying strategies and actions agencies can 
take to reduce a growing amount, now over $140 billion annually, of 
improper government payments; finding ways to close the yawning tax gap 
of over $400 billion dollars annually between taxes owed to the 
government and total taxes paid; and helping the Congress determine 
policy implications of increasingly complex and rapidly evolving 
development of science and technology.
             priority areas for resource enhancement at gao
    While GAO always responds to the oversight and legislative 
priorities of the Congress, in fiscal year 2018 we would also propose 
to focus additional resources on certain areas as staffing is made 
available, including:

    Growing Amounts of Improper Payments.--Payments that should not 
have been made or that were made in an incorrect amount are a growing 
government-wide issue. Since fiscal year 2003, when certain agencies 
were required by statute to begin reporting improper payments, 
cumulative improper payment estimates have totaled over $1.2 trillion. 
The improper payments annual estimate in fiscal year 2016, attributable 
to 112 programs across 22 agencies, was over $144 billion, up from 
almost $137 billion in fiscal year 2015 and almost $125 billion in 
fiscal year 2014.
    Three large programs, Medicare, Medicaid, and the Earned Income Tax 
Credit, account for over 78 percent of the fiscal year 2016 government-
wide improper payment estimate. Federal spending for Medicare and 
Medicaid is expected to increase significantly, so it is especially 
critical to take appropriate measures to reduce improper payments in 
these programs.
    In fiscal year 2016, 14 Federal programs had improper payment 
estimates greater than $1 billion. Eleven programs had payment error 
rates that exceeded 10 percent. To address the issue of improper 
payments, agencies should first identify the root causes of improper 
payments and then implement internal controls aimed at both prevention 
and detection.
    The government's ability to understand the scope of the issue is 
hindered by incomplete, unreliable, or under stated estimates; risk 
assessments that may not be accurate; and noncompliance with criteria 
listed in Federal law. For example, 18 Federal programs determined to 
be at risk for improper payments did not report estimates of improper 
payments in fiscal year 2016.
    In addition, DoD lacks quality assurance procedures to ensure the 
completeness and accuracy of its estimates. Further, various Inspectors 
General reported deficiencies related to compliance with the criteria 
listed in the Improper Payments Elimination and Recovery Act of 2010 
for fiscal year 2015 at their respective Federal entities.
    Our work identifies a number of strategies and specific actions 
agencies can take to reduce improper payments, which could yield 
significant savings and help better ensure that taxpayer funds are 
adequately safeguarded.

    Yawning Tax Gap.--According to the 2016 Financial Report, the 
estimated size of the annual gross tax gap between taxes owed to the 
government and total taxes paid on time is $458 billion. The tax gap 
arises when taxpayers, whether intentionally or inadvertently, fail to 
(1) accurately report tax liabilities on tax returns (underreporting); 
(2) pay taxes due from filed returns (underpayment); or (3) file a 
required tax return altogether or on time (nonfiling). Underreporting 
accounted for 84 percent of the tax gap across tax years 2008 to 2010.
    This resulted in an annual net tax gap of $406 billion. Given the 
size of the tax gap, increased attention to this area would yield 
significant financial benefits and help improve the government's fiscal 
position.
    Addressing the tax gap requires strategies on multiple fronts. Key 
factors that contribute to the tax gap include limited third party 
reporting and tax code complexity. For example, the extent to which 
individual taxpayers accurately report their income is correlated with 
the extent to which the income is reported to them and the IRS by third 
parties.
    Our work identifies a number of strategies and specific actions 
Congress and agencies can take to reduce the tax gap, including 
simplifying the tax code. Additional resources would enable us to 
expand our work in finding ways to further close the tax gap, thus 
improving the government's financial position.

    Science and Technology.--Science and technology developments 
influence almost every aspect of the American experience; they present 
great opportunities to improve the quality of life, the performance of 
the economy and the government, and the relationship of the government 
to its population. While information technology is a major 
technological force of this era, linking individuals, organizations, 
and economies around the world, other kinds of scientific and 
technological advances are also creating significant changes.
    The increased development and use of new technologies challenge the 
government's and the Congress's ability to evaluate their potential and 
assess their program and policy implications in areas such as security, 
safety, privacy, and equity.
    In fiscal year 2016 we reported on Zika virus as an emerging 
infectious disease, the continued need for effective oversight of high-
containment laboratories, the status of bio forensic capabilities in 
the law enforcement and homeland security communities, the emergence of 
data analytics and its overall impact on society and the economy, and 
how municipalities can use technology to improve the efficiency of 
their water distribution systems and tap nontraditional sources to 
address water scarcity, among others.
    GAO has already issued two best practice guides, addressing capital 
acquisitions in the areas of lifecycle cost estimates and project 
scheduling. These best practice products are designed to assist Federal 
managers in addressing major projects, and they also serve as a means 
by which GAO can evaluate such projects. Adding to these initial 
efforts, GAO's science and technology group issued a third best 
practice guide, this one addressing technology readiness assessment.
    We expect this most recent work will be a means by which program 
managers can identify technologies and manage their risks throughout 
the development of technology-dependent projects. Given the persistent 
and growing demand for this technical work, GAO strives to continue to 
build our staff capacity in this growing area.
    Additional resources would enable us to expand our work including 
the completion of key strategic technology reports on the Internet of 
Things, sustainable chemistry, rapid point-of-care medical diagnostics 
for detecting infectious diseases (e.g., Ebola), artificial 
intelligence systems, electromagnetic pulse threat mitigation 
technologies, oversight of biosafety labs, nuclear waste immobilization 
technologies, and emerging infectious diseases.
    Based on interest expressed by various Committees of jurisdiction, 
potential future science and technology work could focus on antibiotic-
resistant bacteria, freshwater conservation technologies for the 
agricultural sector, block chain technologies (financial technology), 
unmanned aerial systems, high-frequency trading technologies, and 
regenerative medicine, among others.
                  information technology improvements
    In fiscal year 2017, GAO requested funding to continue investments 
to enhance our management information systems, IT infrastructure and 
security, as well as our telecommunications capabilities. Fiscal year 
2018 funding will seek to continue these efforts as well as make 
additional improvements in these areas. For fiscal year 2018 GAO is 
requesting funding needed to continue our efforts to improve and 
modernize GAO's technology infrastructure and services.
    Over the past few years GAO has undertaken the Engagement 
Management System (EMS) and New Blue initiatives to better leverage 
technology. These new systems will enhance our core business processes 
and enable GAO products to be created and distributed in the most 
efficient manner using currently supported technology.
    GAO developed and deployed EMS to help manage the work throughout 
the agency. This new system has been rolled out across the agency and 
has allowed us to retire multiple legacy applications. New Blue will 
enable the end-to-end processing of GAO products from drafting through 
issuance to the Congress and posting on GAO's website. New Blue will 
allow GAO to keep pace with the evolving methods of demand and 
consumption of information from our clients and stakeholders by 
supporting multiple formats and product types. Both EMS and New Blue 
have been planned and are being executed to ensure the quality and 
reliability of GAO products continues to be met at the highest levels 
allowing greater efficiency and flexibility in best supporting 
Congressional needs.

    With funding requested for 2018, GAO will be able to meet key 
demands for technology upgrades, including:

  --GAO needs funding to upgrade its data center and the infrastructure 
        that supports GAO operations. GAO's data center requires 24/7 
        operational availability to adequately support staff located in 
        headquarters and GAO's 11 field locations throughout the United 
        States. GAO needs to improve data management operations and 
        security to ensure adequate support and meet ongoing needs. As 
        such, in fiscal year 2018, we will assess options to upgrade 
        the equipment supporting the center to provide a modern 
        computing environment, which could reduce costs and enhance 
        security, capacity, and availability. We expect to initiate 
        replacement of the equipment and support beginning in fiscal 
        year 2018.
  --GAO is looking to make strategic investments into cloud-based 
        solutions to maximize efficiency, improve the security of our 
        data and our ability to best combat cyber threats to our 
        infrastructure, and position us to leverage technology 
        opportunities in the future.
  --Funding is also being sought to retire our aging telephone and 
        video teleconferencing infrastructures and replace them with a 
        state of the art communications platform. Given that 
        collaboration is so vital to our mission, we are looking to 
        invest in new technologies that will improve how our staff 
        works and communicates when doing our work across geographic 
        locations.
  --Another key priority in fiscal year 2018 is our effort to replace 
        our aging document management solution with a modern content 
        management solution. A new solution will improve our 
        capabilities to store and re-use the information and content we 
        produce in support of core Agency work processes and products. 
        A modern content management solution will enable GAO to more 
        effectively and efficiently serve Congress and the American 
        Public by providing new workflow management capabilities.

    Cumulatively these technology improvements will help the GAO 
workforce deliver its analysis to the Congress in the most robust and 
modern manner and consistent with currently supported technology 
standards. We are consistently looking to improve our technology 
platforms to take advantage of technology advances that best enable GAO 
to deliver value to our clients while seeking cost saving 
opportunities. We sincerely appreciate the Committee's support to date 
and look forward to your support in fiscal year 2018 and beyond.
                       gao's current environment
    GAO operated at the Continuing Resolution (CR) level through the 
beginning of May. This had a significant impact on human resource and 
operations. We deferred or reduced staffing and curtailed spending on 
technology investments that are critical to our efforts to modernize 
GAO's infrastructure and business processes.
    The fiscal year 2017 funding provided in the Omnibus will afford us 
an opportunity to address many of the staffing and operations 
challenges presented during the Continuing Resolution period.
    The fiscal year 2018 budget request would enable GAO to bolster its 
staff capacity to 3,100 FTEs through a targeted recruitment program to 
help address succession planning and fill critical skill gaps. This 
funding level will also help ensure that GAO is able to recruit and 
retain a talented and diverse workforce as well as make progress 
towards an optimal staffing level of 3,250 FTEs.
    We expect to offset our funding needs with $27.5 million in 
reimbursements from program and financial audits and rental income, 
resulting in a net appropriation request of $590.7 million.
               assisting congress in shaping legislation
    GAO continues to be recognized for its non-partisan, objective, 
fact-based, and professional analyses across the full breadth and scope 
of the Federal Government's responsibilities and the extensive 
interests of Congress. In fiscal year 2016, and to date in fiscal year 
2017, Congress used GAO's work as the basis for a wide range of 
significant legislative decisions.

    The Consolidated Appropriations Act, 2017.--In many cases requires 
an agency to take action based on GAO findings and recommendations. For 
example, the act requires:

  --Census to address shortcomings in its cost estimate, identified by 
        GAO, for the 2020 Census;
  --Federal agencies to resolve duplication in programs identified by 
        GAO, by identifying substantive challenges, legal barriers, and 
        by making legislative recommendations;
  --IRS to develop a customer service plan with specific goals, 
        strategies and, resources; GAO recommended that IRS assess gaps 
        between desired and actual customer service performance;
  --GSA to improve its ability to account for Federal property and its 
        value; the management of Federal real property has been on 
        GAO's high risk list since 2015;
  --Labor to finalize and implement regulations related to the 
        Workforce Innovation and Opportunity Act; GAO found that 
        limited guidance and regulations slowed the act's 
        implementation; and
  --Defense to
    --produce information clarifying the content, scope, and phasing of 
            developments, and capabilities of Joint Strike Fighter 
            components; GAO found current management of follow-on 
            development potentially posed greater costs and schedule 
            risk;
    --report on the cost, schedule, and obligations of the Defense 
            Healthcare Systems Modernization program.

    The act also cited GAO work on deficiencies in agencies' 
information technology systems and directed agencies to implement those 
recommendations. Among those agencies included were the Farm Service 
Agency, the IRS, Housing and Urban Development, and the Federal 
Emergency Management Agency.
    The Act also directed agencies to implement other GAO 
recommendations. For example, the act directs:

  --Customs and Border Patrol to document the time unaccompanied 
        children spend in custody, the care afforded them, and to 
        develop a way to register, track and analyze complaints for 
        trends.

    In other cases, the Act required an agency to report on its 
progress implementing a GAO recommendation. For example, the act 
requires progress reports on the following:

  --the State Department's efforts to utilize cost containment, risk 
        assessment, and strategic planning for oversees facilities, 
        such as embassies; and establish performance goals for programs 
        meant to reduce global poverty and to collaborate with similar 
        U.S. programs; and
  --Interior's actions to ensure the Bureau of Indian Education schools 
        and facilities have effective management controls and comply 
        with Federal laws and regulations.

    Finally, the act included reductions to budget requests, including 
to the Department of Defense's (DoD) fiscal year 2017 appropriations 
based on GAO work. For example, GAO found that DoD had overstated its 
fiscal year 2017 O&M budget request for fuel, resulting in $1.1 billion 
in reductions.

    The Fiscal Year 2017 Military Construction and Veterans Affairs, 
and Related Agencies Appropriations Act.--Requires Veteran Affairs (VA) 
to clarify access and wait times for mental health serves and how it 
manages appointments for these services. GAO found that the Veterans 
Health Administration calculations of veteran mental health wait times 
may not have always reflected the overall amount of time a veteran 
waited for care.

    The Bipartisan Budget Act of 2015.--The Congress used GAO's work to 
contribute to an agreement on spending caps in fiscal years 2016 and 
2017 by identifying $30 billion in offsets or revenue enhancements, 
including (1) making new provider-based off-campus hospital outpatient 
departments ineligible for inpatient reimbursements, saving $9.3 
billion; (2) streamlining and simplifying audit procedures for certain 
partnerships, increasing tax revenue by an estimated $9.3 billion; and 
(3) requiring agencies to increase civil monetary penalties annually 
reflecting the consumer price index, generating $1.3 billion.

    The National Defense Authorization Act for Fiscal Year 2017.--
Undertakes significant reform of military acquisition policy. 
Specifically, the Act requires DoD to improve reporting about the 
volume and types of defense services acquired, control costs, enhance 
access to supply chains, and take steps to reduce acquisition risks and 
encourage the development of new prototypes.

  --These changes reflect GAO's body of work on military acquisition 
        that concluded, among other things, that senior DoD leadership 
        needed to be better positioned to make informed decisions about 
        acquisition. Changing approaches to acquisition could result in 
        significant savings. In addition, access to innovative 
        technology could be improved.
  --In addition to reforming acquisition, the Act requires DoD to 
        report on rebuilding military readiness, specifically 
        comprehensive readiness goals, implementation strategies, 
        progress metrics, and related costs and other best practices. 
        These requirements reflect GAO's finding that the lack of a 
        comprehensive plan put DoD's readiness rebuilding efforts at 
        risk.
  --The Act did not fund the request for $15,260,000 in funding to 
        create a repository for defense nuclear waste, based on GAO's 
        finding that DOE's cost estimates for its repository plan 
        excluded billions of dollars in likely costs.
  --Separately, the Act directs Federal agencies to use paid 
        administrative leave more judiciously, so leave does not exceed 
        reasonable amounts. GAO had reported that Federal agencies had 
        inconsistent policies for the use and reporting of paid 
        administrative leave and that 263 Federal employees had used 1 
        to 3 years of leave during a 3 year period.

    The Fraud Reduction and Data Analytics Act of 2015.--Requires the 
Office of Management and Budget (OMB) to establish guidelines based on 
GAO's 2015 Framework for Managing Fraud Risks in Federal Programs to 
help prevent and respond to fraud and improper payments in Federal 
programs.
    The Framework identifies leading practices to help managers combat 
fraud and preserve integrity in government agencies and programs. The 
act should help agencies reduce their vulnerability to fraud by 
encouraging them to identify risks and vulnerabilities; implement 
financial and administrative controls; and by requiring transparency 
through reporting on these efforts.

    The Frank R. Lautenberg Chemical Safety for the 21st Century Act.--
GAO has had ``Transforming EPA's Process for Assessing and Controlling 
Toxic Chemicals'' on our high-risk list since 2009 because EPA had not 
developed sufficient chemical assessment information to limit exposure 
to many chemicals that may pose substantial health risks. This act 
provides EPA with greater authority to address chemical risks.

    Program Management Improvement Accountability Act.--The act seeks 
to improve program and project management in Federal agencies. Among 
other things, the act requires the Deputy Director of the Office of 
Management and Budget (OMB) to adopt and oversee implementation of 
government-wide standards, policies, and guidelines for program and 
project management in executive agencies.
    The act elevates agencies' attention to GAO's high risk list by 
requiring the Deputy Director to address programs on our High-Risk List 
through portfolio reviews; creating an interagency forum to review 
programs on the High-Risk List and make recommendations to the Deputy 
Director or designee; and having GAO review the effectiveness of key 
efforts under the act.

    The No Veterans Crisis Line Call Should Go Unanswered Act.--
Requires Veterans Affairs to ensure that each telephone call, text 
message, or other communication that their crisis line receives is 
answered in a timely manner by a person. GAO found that VA did not meet 
its call response time goals for the Veterans Crisis Line and that some 
test text messages did not receive responses.
      financial benefits to the federal government from gao's work
    GAO's findings and recommendations produce measurable financial 
benefits for the Federal Government. Examples include financial 
benefits resulting from changes in business operations and activities, 
the restructuring of Federal programs, or modifications to 
entitlements, taxes, or user fees.

    In fiscal year 2016, we exceeded our target of $50.0 billion in 
financial benefits by $13.4 billion, reaching $63.4 billion in benefits 
for the government. This is a return of about $112 for every dollar 
invested in us. Key financial benefits arising from our work included:

  --reducing improper payments in the Medicare Advantage Program (about 
        $21.4 billion);
  --increasing the use of strategic sourcing by the VA to reduce 
        procurement costs (about $3.6 billion); and
  --improving cost estimates for the DoD's Bulk Fuel Operation and 
        Maintenance budget (about $2.3 billion).
                            program benefits
    Many other benefits resulting from our work cannot be measured in 
dollars, but lead to program and operational improvements. In fiscal 
year 2016, agencies and Congress implemented 1,234 of these other 
benefits. For example, our work on public safety and security:

  --prompted DOT to enhance its oversight of roadside safety hardware 
        (e.g., guardrails), including a new process to verify third-
        party crash-test results;
  --led the Consumer Financial Protection Bureau (CFPB) to issue a 
        comprehensive data privacy protection plan and develop 
        procedures to mitigate privacy risks and remove personally 
        identifiable information from the consumer data that it 
        collects;
  --induced the Army to complete a mission risk assessment on planned 
        support unit force reductions, and assess options to minimize 
        such risks;
  --prompted the Federal Bureau of Investigation to (1) conduct audits 
        to ensure that staff who submit face image searches comply with 
        privacy laws and (2) undertake an operational review of its 
        face recognition technology to see if it is meeting law 
        enforcement user needs; and
  --led the Department of State to enhance its management of 
        transportation-related security risks to better protect U.S. 
        diplomatic personnel and their families when posted overseas.

    Similarly, our work related to vulnerable populations:

  --addressed protection of children including: identifying (1) safety 
        and health issues at Indian school facilities and the need for 
        better Federal coordination to assist K-12 schools with 
        emergency preparedness, (2) the need for better use of data to 
        help agencies identify disparities in K-12 education, and (3) 
        the importance of further assisting States to keep foster 
        children in family based care;
  --prompted the Federal Trade Commission and CFPB to issue consumer 
        advisories to reduce the exploitation of vulnerable people 
        regarding pension advances;
  --prompted VA to improve the accuracy of the data collected on 
        veteran suicides across its medical centers to better inform 
        suicide prevention efforts; and
  --led the Department of Education to enhance assistance for homeless 
        youth in planning for college, navigating the admissions 
        process, and applying for Federal student aid.
                     testimonies and digital media
    In fiscal year 2016 senior GAO officials testified 119 times before 
69 separate committees or subcommittees on issues that touched 
virtually all major Federal agencies.
    We also engaged key stakeholders on social and digital media. Our 
testimonies, reports, and legal decisions appeared in nearly 40,000 
twitter feeds. Watch Blog, which provides context about our work, has 
been viewed more than 165,000 times. Figure 1 shows examples of topics 
we testified on in fiscal year 2016, by strategic goal.

          FIGURE 1: SELECTED GAO FISCAL YEAR 2016 TESTIMONIES

_______________________________________________________________________
Goal 1: Address Current and Emerging Challenges to the Well-Being and 
        Financial Security of the American People
_______________________________________________________________________

Addressing Improper Payments in the Supplemental Nutrition Assistance 
Program
Improving Oversight of the Small Business Administration's HUB Zone 
Program
Timely Handling of Veterans' Health Care Claims
Controls for Preventing Human Trafficking
Reforming Regulation of Scientific Research
Ensuring Safety and Health at Indian Schools
Managing Federal Agencies' Vehicle Fleets
Safeguarding Transport of Spent Nuclear Fuel
U.S. Postal Service Management Challenges
Overseeing the Nuclear Security Enterprise
Commercial Space Industry Developments and FAA Challenges
Improving Medicaid's Allocation to States
Managing and Leasing Federal Real Property

_______________________________________________________________________
Goal 2: Respond to Changing Security Threats and the Challenges of 
        Global Interdependence
_______________________________________________________________________

Addressing NASA's Management Challenges for Major Acquisition Projects
Meeting Pilot Workforce Needs for Unmanned Aerial Systems
Addressing Acquisition Shortfalls with the Ford Class Aircraft Carrier
Reducing Migration of Unaccompanied Children from Central America
Oversight of Humanitarian Aid to Syria
Future Access and Capabilities Challenges for Trusted Defense 
Microelectronics
Addressing Southwest Border Security
Improving DoD's Whistleblower Protections
Implementing SEC's Conflict Minerals Rule
Combatting Nuclear Smuggling
Addressing IT Security and Identity Theft
Providing Data on Proposed Assistance to Palau
Enhancing National BioSurveillance Capacity

_______________________________________________________________________
Goal 3: Help Transform the Federal Government to Address National 
        Challenges
_______________________________________________________________________

DATA Act Implementation Challenges
Observations on the Zika Virus Outbreak
Improving Enrollment Controls for Medicare Providers and Suppliers
Reducing Fragmentation, Overlap, and Duplication in Federal Programs
Addressing Cyber-based Risks to Federal Systems
Modernizing Federal IT Systems
Improving Integration of VA and DoD Electronic Health Records
Improving IRS's Efforts to Protect Taxpayer data and Combat Identity 
Theft Refund Fraud
Oversight at High Containment Laboratories
Addressing Numerous IT Challenges at the VA
Addressing Government-Wide Improper Payments and the Tax Gap
Improving Oversight of DHS' Human Resources IT
Recruiting and Retaining Millennial Employees in the Federal Workforce
Improving Management of IT for the 2020 Census
Improving Federal Financial Management
----------
Source: GAO <rm-bond> GAO-17-1SP
                        high-risk program update
    Every 2 years GAO publishes our high-risk list that highlights 
Federal programs and operations that are especially vulnerable to 
waste, fraud, abuse and mismanagement, or that need transformative 
change.
    GAO's 2017 edition reported that many of the 32 high-risk areas on 
the 2015 list have shown solid progress (Enclosure I). Twenty-three 
high-risk areas, or two-thirds, have met or partially met all five 
criteria for removal from the High-Risk List; 15 of these areas fully 
met at least one criterion. Progress in high risk areas over the past 
decade resulted in financial benefits totaling approximately $240 
billion, or an average of $24 billion per year.
    Progress has been possible through the concerted efforts of 
Congress and leadership and staff in agencies. For example, Congress 
enacted over a dozen laws since GAO's last report in February 2015 to 
help address high-risk issues.
    GAO removed one high-risk area on managing terrorism related 
information, because significant progress had been made to strengthen 
how intelligence on terrorism, homeland security, and law enforcement 
is shared among Federal, State, local, Tribal, international, and 
private sector partners.
    Sufficient progress was made to remove segments of two areas 
related to supply chain management at DoD and gaps in geostationary 
weather satellite data.
    Two high-risk areas expanded: DoD's polar-orbiting weather 
satellites and the Department of the Interior's restructuring of 
offshore oil and gas oversight. Several other areas need substantive 
attention including VA healthcare, DoD financial management, ensuring 
the security of Federal information systems and cyber critical 
infrastructure, resolving the Federal role in housing finance, and 
improving the management of IT acquisitions and operations.

    GAO added three areas to the High-Risk List, bringing the 2017 
total to 34:

  --Management of Federal Programs That Serve Tribes and Their 
        Members.--GAO has reported that Federal agencies, including the 
        Department of the Interior's Bureaus of Indian Education and 
        Indian Affairs and the Department of Health and Human Services' 
        Indian Health Service, have ineffectively administered Indian 
        education and healthcare programs and inefficiently developed 
        Indian energy resources. Thirty-nine of 41 GAO recommendations 
        on this issue remain unimplemented.
  --The 2020 Decennial Census.--The cost of the census has been 
        escalating over the last several decennials; the 2010 Census 
        was the costliest U.S. Census in history at about $12.3 
        billion, about 31 percent more than the 2000 Census. The U.S. 
        Census Bureau plans to implement several innovations including 
        IT systems for the 2020 Census. Successfully implementing these 
        innovations, along with other challenges, would minimize risks 
        to the Census Bureau's ability to conduct a cost-effective 
        census. Since 2014, GAO has made 30 recommendations related to 
        this area; however, only 6 have been fully implemented.
  --U.S. Government's Environmental Liabilities.--In fiscal year 2016 
        this liability was estimated at $447 billion (up from $212 
        billion in 1997). The Department of Energy is responsible for 
        83 percent of these liabilities and DoD for 14 percent. 
        Agencies spend billions each year on environmental cleanup 
        efforts, but the estimated environmental liability continues to 
        rise. Since 1994, GAO has made at least 28 recommendations 
        related to this area; 13 are unimplemented.

    Details on each high-risk area can be found at http://www.gao.gov/
highrisk/overview.
    opportunities to reduce fragmentation, overlap, and duplication
    Since 2011, we have reported on Federal programs, agencies, 
offices, and initiatives that have duplicative goals or activities as 
well as opportunities to achieve greater efficiency and effectiveness 
that result in cost savings or enhanced revenue collection.
    GAO's 2017 annual report, our seventh, identifies 79 new actions 
that Congress and executive branch agencies can take to improve the 
efficiency and effectiveness of government in 29 new areas. Of these, 
GAO identified 15 areas in which there is evidence of fragmentation, 
overlap, or duplication.
    For example, GAO found that the Army and Air Force need to improve 
the management of their virtual training programs to avoid 
fragmentation and better acquire and integrate virtual devices into 
training to potentially save tens of millions of dollars.
    GAO also identified 14 areas to reduce the cost of government 
operations or enhance revenues. For example, GAO found that the 
Department of Energy could potentially save tens of billions of dollars 
by improving its analysis of options for storing defense and commercial 
high-level nuclear waste and fuel.
    Congress and executive branch agencies have made progress in 
addressing the 645 actions that GAO identified from 2011 to 2016. 
Congressional and executive branch efforts to address these actions 
over the past 6 years have resulted in roughly $136 billion in 
financial benefits, of which $75 billion has accrued and at least an 
additional $61 billion in estimated benefits is projected to accrue in 
future years.
    To manage our congressional workload, we continue to take steps to 
ensure our work supports the highest congressional legislative and 
oversight priorities while focusing on areas with the greatest 
potential for results, such as cost savings and improved government 
performance.
  managing workload by focusing resources on congressional priorities
    We actively coordinate with congressional committees in advance of 
new statutory mandates \1\ by identifying mandates in real time as 
bills are introduced, participating in ongoing discussions with 
congressional staff, and collaborating to ensure that the work is 
properly scoped and consistent with the committees' highest priorities.
---------------------------------------------------------------------------
    \1\ Congressional mandates include requirements directed by 
statutes, congressional resolutions, conference reports, and committee 
reports.
---------------------------------------------------------------------------
    In fiscal year 2016, we devoted 97 percent of our engagement 
resources to work requested or mandated by the Congress. The remaining 
3 percent was initiated under the Comptroller General's authority.
    Chairs and Ranking Members of committees and subcommittees are 
regularly consulted for feedback on our performance. Their priorities 
ensure we maximize the return on your investment in us.
    We continue to collaborate with the Congress to revise or repeal 
mandated reporting requirements which have, over time, lost relevance 
or usefulness. For example, we worked with the armed services 
committees to have three mandates repealed or revised in the 2017 
National Defense Authorization Act (Public Law 114-328). In addition, 
in December, 2016, Congress passed the GAO Mandates Revision Act of 
2016, which revised or repealed eight statutory reporting requirements 
(Public Law 114-301).
                          gao's strategic plan
    GAO's Strategic Plan provides a comprehensive roadmap for how our 
audit work will support the most important priorities of Congress and 
the American people. ``Serving the Congress and the Nation 2014-2019 
(GAO-14-1SP)'' describes our goals and strategies for supporting 
Congress and the Nation.
    The Strategic Plan Framework (Enclosure II) summarizes the global 
trends affecting government and society, as well as the strategic goals 
and objectives that guide our work. We will issue the next update to 
our strategic plan in 2018.
    To effectively assist the Congress, we perform not only oversight 
and insight work, but also foresight work to identify and explore the 
emerging issues that present both opportunities and significant risks 
for our Nation. Building further foresight capabilities, including the 
ability to understand evolving trends and plan in a dynamic external 
environment, is an essential component to our support of Congress.
                         internal improvements
    The hard work and dedication of our professional, diverse, 
multidisciplinary staff positioned GAO to achieve a 94 percent on-time 
delivery of our products in 2016. Our fiscal year 2016 performance 
continues to indicate that we provide staff with the necessary support 
to produce high-quality work.
    We met our annual target for retention rate without retirements and 
exceeded our annual targets for the remaining six people measures, 
staff development, and staff utilization, effective leadership by 
supervisors, organizational climate, new hire rate, and retention rate 
with retirements.
    In fiscal year 2016, we continued efforts to support and maximize 
our value by enabling quality, timely service to the Congress and being 
a leading practices Federal agency. We made progress addressing our 
four internal management challenges, human capital management, 
engagement efficiency, information security, and telework.
    We remain an employer of choice in the public sector. The 
Partnership for Public Service announced that we are one of the top 
places to work in the Federal Government. We improved our scores in 
2016, rising to second place among mid-size agencies. We are ranked 
first for diversity and inclusion. Our ranking is a result of the 
dedicated efforts of the entire GAO team and our leaders' commitment to 
make our organization a great place to work.
    We value our high-performing workforce. Management remains 
committed to work with our unions (IFPTE, Local 1921), the Employee 
Advisory Council, and the Diversity Advisory Council to make GAO a 
preferred place to work. We continue to monitor and address critical 
human capital management challenges, including the pending retirements 
of key subject matter experts, senior executives, and other key 
leaders. By the end of fiscal year 2017, 41 percent of our senior 
executives and more than 25 percent of our supervisory analysts will be 
eligible to retire.
                      center for audit excellence
    Public Law 113-235 authorized GAO to establish a Center for Audit 
Excellence (Center) to provide fee-based training, technical assistance 
and other products and services to domestic and international 
accountability organizations to promote good governance and enhance 
their capacity.
    During fiscal year 2016, the Center's first year of operation, the 
Center provided fee-based training classes and audit-related technical 
assistance services to 10 Federal, State, local and non-profit 
organizations. The Center helped to enhance the capacity of these 
organizations by providing training on topics such as internal control, 
performance auditing, audit planning, report writing, and statistical 
sampling and analysis. Also, in April 2016, the Center entered into a 
Memorandum of Agreement with the U.S. Agency for International 
Development (USAID) that provides a broad framework for collaborative 
efforts to strengthen the capacity of accountability organizations in 
developing countries that receive U.S. foreign assistance.
    During fiscal year 2017, the Center has experienced increased 
demand for training and technical assistance services from both 
domestic and international accountability organizations. The Center has 
signed agreements and/or provided training classes to nine Federal, 
State, and local government organizations thus far this fiscal year, 
including a package of five one-week training classes valued at 
$157,000 for one organization. Agreements with other domestic 
organizations are also under negotiation. Internationally, the Center 
is executing an agreement with the country of Georgia's Supreme Audit 
Office for $95,000 in training and technical assistance services to 
enhance the office's capability to conduct information technology 
audits. Finally, the Center is in the process of negotiating agreements 
with USAID and other donors to provide technical assistance services to 
other Supreme Audit Institutions.
                           concluding remarks
    We value the opportunity to provide Congress and the nation with 
timely, insightful analysis on the challenges facing the country. Our 
fiscal year 2018 budget requests the resources to ensure that we can 
continue to address the highest priorities of the Congress.
    Our request will allow us to continue building our staffing level 
and provide our employees with the appropriate resources and support 
needed to effectively serve the Congress. This funding level will also 
allow us to continue efforts to promote operational efficiency and 
address long-deferred investments and maintenance. We will also 
continue to explore opportunities to generate revenue to help offset 
our costs.
    I appreciate, as always, your careful consideration of our budget 
and your continued support. I look forward to discussing our fiscal 
year 2018 budget with you.

    [Enclosures I and II follow:]

                 ENCLOSURE I: GAO'S 2017 HIGH RISK LIST

                GAO'S HIGH-RISK AS OF SEPTEMBER 30, 2016
------------------------------------------------------------------------
                   High Risk Area                       Year Designated
------------------------------------------------------------------------
Strengthening the Foundation for Efficiency and Effectiveness
------------------------------------------------------------------------
    Improving Federal Programs that Serve Tribes and               2017
     their Members (new) \a\........................
    2020 Decennial Census (new).....................               2017
    U.S. Government Environmental Liabilities (new)                2017
     \a\............................................
    Improving the Management of IT Acquisitions and                2015
     Operations.....................................
    Limiting the Federal Government's Fiscal                       2013
     Exposure by Better Managing Climate Change Risk
    Management of Federal Oil and Gas Resources.....               2011
    Modernizing the U.S. Financial Regulatory System               2009
     and the Federal Role in Housing Finance \a\....
    Restructuring the U.S. Postal Service to Achieve               2006
     Sustainable Financial Viability \a\............
    Funding the Nations Surface Transportation                     2007
     System \a\.....................................
    Managing Federal Real Property..................               2003
    Strategic Human Capital Management \a\..........               2001
------------------------------------------------------------------------
Transforming Defense Department Program Management
------------------------------------------------------------------------
    DoD Approach to Business Transformation.........               2005
    DoD Support Infrastructure Management \a\.......               1997
    DoD Business Systems Modernization..............               1995
    DoD Financial Management........................               1995
    DoD Supply Chain Management.....................               1990
    DoD Weapon Systems Acquisitions.................               1990
------------------------------------------------------------------------
Ensuring Public Safety and Security
------------------------------------------------------------------------
    Mitigating Gaps in Weather Satellite Data.......               2013
    Protecting Public Health through Enhanced                      2009
     Oversight of Medical Products..................
    Transforming EPA's Processes for Assessing and                 2009
     Controlling Toxic Chemicals....................
    Ensuring the Effective Protection of                           2007
     Technologies Critical to U.S. Nations Security
     Interests \a\..................................
    Improving Federal Oversight of Food Safety......               2007
    Strengthening Department of Homeland Security                  2003
     Management Functions \a\.......................
    Ensuring the Security of Federal Information                   1997
     Systems and Cyber Critical Infrastructure and
     Protecting the Privacy of Personally
     Identifiable Information.......................
------------------------------------------------------------------------
Managing Federal Contracting More Effectively
------------------------------------------------------------------------
    DoD Contract Management \a\.....................               1992
    DOE's Contract Management for the National                     1990
     Nuclear Security Administration and the Office
     of Environmental Management....................
    NASA Acquisition Management.....................               1990
------------------------------------------------------------------------
Assessing the Efficiency and Effectiveness of Tax Law Administration
------------------------------------------------------------------------
    Enforcement of Tax Laws \a\.....................               1990
------------------------------------------------------------------------
Modernizing and Safeguarding Insurance and Benefit Programs
------------------------------------------------------------------------
    Managing Risks and Improving VA Health Care \a\.               2015
    National Flood Insurance Program................               2006
    Improving and Modernizing Federal Disability                   2003
     Programs.......................................
    Pension Benefit Guaranty Corporation Insurance                 2003
     Programs \a\...................................
    Medicaid Program \a\............................               2003
    Medicare Program \a\............................               1990
------------------------------------------------------------------------
\a\ Legislation is likely to be necessary to effectively address this
  high risk area
 
Source: GAO <rm-bond> GAO 17-317

              ENCLOSURE II: GAO'S STRATEGIC PLAN FRAMEWORK

 (See  Enclosure II in the full report GAO-17-604T, ``Testimony Before 
       the Subcommittee on the Legislative Branch, Committee on 
    Appropriations, U.S. Senate'' in the appendix at the end of the 
                               hearing.)

    Senator Lankford. Thank both of you for your testimony. 
Senator Murphy and I are going to defer our questions to the 
end, and recognize Senator Van Hollen.
    Senator Van Hollen. Thank you. Thank you, Mr. Chairman and 
Ranking Member Murphy. I am grateful for the opportunity.
    Thank both of you for your testimony today. Most 
importantly, thank you and your teams for the good work you do 
on behalf of our constituents, the American people and 
taxpayers.

                            METRO ENGAGEMENT

    Mr. Dodaro, I just have a couple questions. One is a 
regional issue regarding the Washington Metro system, which 
carries hundreds of thousands of Federal employees to work 
every day, and I appreciate your oversight work on SafeTrack.
    As I am sure you are aware, Members of the regional 
delegation here, Senator Warner, Senator Cardin, Senator Kaine 
and others have requested that GAO look into some additional 
challenges with a view to making recommendations as to how we 
move forward with this multijurisdictional metro system that is 
the Nation's subway.
    My question to you is, number one, have you had a chance to 
review that request, and do you have any sense of when your 
analysis might be ready?
    Mr. Dodaro. We have reviewed the request. We have accepted 
the request. The work of our staff is underway and--we will 
have to give you a date later. I am not prepared to give a date 
right now.
    Senator Van Hollen. Got it.
    Mr. Dodaro. It is important work. We will finish it as soon 
as we can.
    Senator Van Hollen. I appreciate that.

                      OVERSEAS CONTINGENCY ACCOUNT

    Next question relates to budget issues and OCO. For those 
of us who have been working on budget issues over time, there 
are issues of sequestration and then there are issues of what 
the overall defense spending will be and nondefense. And then 
within defense and some nondefense categories we have the 
overseas contingency----
    Mr. Dodaro. Right.
    Senator Van Hollen [continuing]. Accounts. And as I think 
both parties have recognized, over time, these accounts have 
been used in some cases for more of a slush fund to pay for 
things that are not necessarily contingencies but may be 
enduring costs. I know that in January GAO recommended that 
both DoD and OMB work together to revise the criteria for 
determining what meets the requirements of being considered 
overseas contingency account expenditures.
    So, my question is do you know where those agencies are? I 
believe that they were waiting for a new administration to 
pursue your recommendation. What is the status of that? What is 
this new administration thinking in that regard?
    Mr. Dodaro. Yes. I have a meeting next month with Secretary 
Mattis over at the Department of Defense (DoD), and I plan to 
follow up. I met once with Director Mulvaney, and I did not 
address this issue with him at that time. I had a long list of 
other things to talk to him about. I will follow up with him. I 
do not know offhand, Senator Van Hollen. It is something that I 
will follow up with both of them on.
    Senator Van Hollen. I hope you will. OMB Director Mulvaney 
and I do not agree on everything, but we actually had a 
bipartisan amendment in the House of Representatives, which 
passed at least 1 year, to end the abuse of OCO because all of 
us I think should agree that, at least from an accounting 
perspective, we should be honest and transparent with the 
American people, so I really hope you will----
    Mr. Dodaro. Yes.
    Senator Van Hollen [continuing]. Pursue that because I am 
sure this is an issue that will arise in the context of the 
upcoming budget negotiations and the appropriations.
    Mr. Dodaro. Yes. I will do two things. One, I will provide 
an answer for the record based upon checking with our staff, 
and then I will follow up with both of those individuals.
    [The information follows:]
   response for the record on status of recommendations for overseas
  contingency operations: omb and dod should revise the criteria for 
determining eligible costs and identify the costs likely to endure long 
                            term (gao-17-68)
    GAO made the following recommendations for executive action in this 
January, 2017 report.
    1.  To provide additional information for congressional decision 
makers regarding DoD's budget, the Secretary of Defense should direct 
the Under Secretary of Defense (Comptroller), in consultation with the 
OMB, to reevaluate and revise the criteria for determining what can be 
included in DoD's OCO budget requests to reflect current OCO-related 
activities and relevant budget policy directing in which budget 
requests OCO funds may be included.
    2.  To assist decision makers in formulating DoD's future budgets, 
the Secretary of Defense should direct the Under Secretary of Defense 
(Comptroller) to develop a complete and reliable estimate of DoD's 
enduring OCO costs and to report these costs in concert with the 
department's future budget requests, and to use the estimate as a 
foundation for any future efforts to transition enduring costs to DoD's 
base budget.
    The Department of Defense (DoD) and Office of Management and Budget 
(OMB) have not taken action on our recommendations. In DoD's response 
to a draft of our report, DoD concurred with our first recommendation 
and stated it planned to propose updated criteria to OMB to reflect 
current and evolving threats and reflect any changes in overseas 
contingency operations policy under the new administration. As of June 
2017, neither OMB nor DoD has publically released updated criteria, and 
DoD has not made any updates to Volume 12, Chapter 23 of its Financial 
Management Regulation that governs contingency operations to reflect 
the criteria.
    According to an official at DoD, at this time, there are no updates 
to the criteria for determining what can be included in DoD's overseas 
contingency operations budget request nor are there efforts underway 
between DoD and OMB to update the criteria. In addition, DoD's fiscal 
year 2018 budget request continued to include activities that our 
report identified as not being specifically addressed in the OMB 
criteria, including operations in Syria, the European Reassurance 
Initiative, and security cooperation funds (formerly the known as the 
Counterterrorism Partnership Fund).
    Regarding our second recommendation, the department has not, as 
yet, responded, and DoD's fiscal year 2018 budget request, issued in 
May 2017, did not include an estimate of its enduring overseas 
contingency operations costs as we had recommended. In its response to 
our draft report, DoD partially concurred with our second 
recommendation and commented that developing reliable estimates is an 
important first step in any future effort to transition these costs to 
the base budget.
    However, DoD stated that until there is relief from the budgetary 
caps established by the Budget Control Act of 2011, DoD would need 
overseas contingency operations funds to finance counterterrorism 
operations, such as Operation Freedom Sentinel and Operation Inherent 
Resolve. DoD also offered no plans to take action to address this 
recommendation in its response to our draft report.

                             PENTAGON AUDIT

    Senator Van Hollen. Thank you. My last question for you, 
Mr. Dodaro, is that the Pentagon waste and the fact that DoD 
has still not passed an audit, we discussed this briefly----
    Mr. Dodaro. Right.
    Senator Van Hollen [continuing]. During the Budget 
Committee hearing. Just to quote from the GAO's report that the 
Pentagon's inability to manage its finances affects its, quote, 
``ability to control costs, ensure basic accountability, 
anticipate future costs, measure performance, prevent and 
detect fraud, waste, and abuse, and address pressing management 
issues and prepare auditable financial statements.''
    Now, the DoD Inspector General--well, we had set out a 
deadline of September 30 of this year for DoD to pass the 
audits. Do you have any current assessment of whether they are 
going to be able to do that?
    Mr. Dodaro. Well, DoD has been expanding the scope of the 
audits. The last couple years they have just been trying to 
audit 1 year of budget execution data and they have not been 
able to pass those audits. They have expanded the scope of the 
audits, which is a good thing because they need to learn more 
about what they need to do to be able to pass an audit. The 
Department has said they do not expect to pass the audits, but 
it is important for them to continue to prepare the data and 
systems to conduct the audit.
    The audits that were done for 2015 and 2016 had over 700 
recommendations for improvement. We have made recommendations 
and DoD need to better monitor the corrective actions and fix 
some of these underlying problems, that would put themselves in 
a better position to ultimately be able to pass an audit.
    Senator Van Hollen. Right.
    Mr. Dodaro. This is one of the things I want to talk to the 
Secretary about. It's important for them to get their people in 
those positions and focused on----
    Senator Van Hollen. Right.
    Mr. Dodaro [continuing]. Those issues, so I am on that 
case.
    Senator Van Hollen. I know, but this has been a story----
    Mr. Dodaro. Yes.
    Senator Van Hollen [continuing]. That goes on----
    Mr. Dodaro. Yes.
    Senator Van Hollen [continuing]. Year after year after 
year, and I think we all appreciate your work at GAO to try to 
make sure we identify Medicare fraud or Medicaid fraud or EITC 
fraud. None of us want to see taxpayer dollars wasted. But with 
DoD, they seem to go on with impunity, and so we look forward 
to that conversation.

                     COPY OF HEALTHCARE REFORM BILL

    So, my last question is really for Dr. Hall, and it is, you 
know, more of a statement of sympathy than a question, but I do 
want to associate myself with the remarks of Senator Murphy 
with respect to the way this process on so-called healthcare 
reform has rolled out here in the United States Senate. We have 
not had a single hearing on a bill, that apparently is going to 
be sprung on the American public as early as tomorrow.
    My question to you is do you have a copy of that bill? And 
when do you expect to be able to issue a CBO analysis of that 
bill?
    Dr. Hall. Well, as you are probably aware, we do a lot of 
work on draft legislation in a confidential mode where we will 
look at pieces of it, we will look at drafts, and give feedback 
and et cetera. And when we are in that mode, we will not talk 
about what we have got, even what we are working on. I can tell 
you we are working on a number of things on a number of topics, 
so I really cannot tell you at this point.
    Senator Van Hollen. Well, apparently, the Republican leader 
is not able to tell the public or even Senator or his members. 
But let me ask you this. Based on your review of the earlier 
iterations of this legislation like the original House bill and 
the second House bill, what is the expected turnaround time 
from when you actually get a final product to when you think 
you are going to be able to provide an analysis? Because that 
will determine potentially the amount of time the American 
public has to look at the nonpartisan analysis of facts before 
we enter into a debate on this legislation.
    Dr. Hall. Well, the answer is it depends. It depends on how 
early we have seen drafts and how much work we have been able 
to do, and they are almost always on things--there are almost 
always little iterations and changes. So, you know, on 
something like that we could spend a fair amount of time on it 
before it is made public, in which case it will not be so long 
to get something out. It actually just--it just sort of 
depends.
    I will say, though, when we are in this confidential mode, 
we are very concerned about the level playing field. So once 
some legislation is in final full form and it becomes public, 
then any estimate we finished becomes public, as soon as we 
finish it or as soon as the bill is made public. So, we will 
make it public as soon as we can once it is sort of full and 
finally released to the public and we have finished our work.
    Senator Van Hollen. Okay. Well, just when you do that, I 
look forward to sitting down with you and your team to go over 
your findings.
    Dr. Hall. Okay. We are happy to do that.
    Senator Van Hollen. Thank you.
    Senator Lankford. Let me just bounce several questions off 
of you, and we will do a couple of rounds of questions and try 
to keep them in smaller bites so we can run through some 
things.

                             2017 GAO STAFF

    Mr. Dodaro, the omnibus funding allocated additional funds 
for GAO to support additional staffing requests and to be able 
to make some changes. How is it going currently implementing 
those at this point, with a shortened fiscal year to be able to 
accomplish that? What is the status?
    Mr. Dodaro. Since we received the funds last month, we have 
expedited our hiring plans. We plan to hire about 211 people 
that would get us to the 3,000 FTE mark that we talked with you 
and your staff about. We have hired about 160 of those already, 
and we are working on the remaining hiring. We expect to be in 
good shape. We expect to have over 3,000 people at the start of 
next fiscal year, so we would be in a position, if we receive 
the additional funds in 2018, to reach the 3,100 mark.
    Exactly where we end up this year will depend on how 
quickly those people get on board in the next couple months 
before the end of the fiscal year. We are being aggressive. We 
are out looking for the people that we need.
    Senator Lankford. What is your typical time to hire as far 
as number of days typically to add an additional employee?
    Mr. Dodaro. I do not know off the top of my head----
    Senator Lankford. That could possibly be the first time I 
have ever asked you a question you did not know the answer to.
    Mr. Dodaro. Well----
    Senator Lankford. And I have asked you a lot.
    Mr. Dodaro. Well, it depends. Most of our hiring is done by 
hiring summer interns back that had been there in the previous 
summer. In those cases, we actually make them job offers before 
they leave. Last year we did not make those offers because we 
did not know our appropriation for the year. We have contracted 
and made offers to them now. If we have to post an announcement 
and evaluate new applicants, then it takes a little longer.
    Senator Lankford. Which, by the way, you just made several 
hundred Federal agencies jealous by saying you are able to hire 
summer interns onto your full-time staff because, of the 120 
hiring authorities they have, they struggle with that one, 
which for most Americans is the most obvious of all the hiring 
authorities that should be in place that most agencies do not 
have. That is a different conversation for a different day.
    Mr. Dodaro. Right.
    Senator Lankford. Hopefully, we can get that done. Senator 
Heitkamp and I are working on getting that hiring authority.

                        FISCAL YEAR 2018 REQUEST

    You have asked for an increase of $11.9 million. Give me a 
quick return on investment on that on why that would be 
beneficial. And not to embarrass you, you have asked for 100 
additional people. The person to your right asked for four. So, 
tell me the return on investment on that to the Federal 
taxpayer.
    Mr. Dodaro. Yes. On a percentage basis----
    Senator Lankford. Yes.
    Mr. Dodaro [continuing]. It is about the same----
    Senator Lankford. I understand.
    Mr. Dodaro [continuing]. Senator. I point that out----
    Senator Lankford. Yes.

                           IMPROPER PAYMENTS

    Mr. Dodaro [continuing]. I think there would be a good 
return on investment in the following areas. I am very 
concerned about the growth in improper payments in the Federal 
Government. Since reporting started by the agencies in 2003, 
over $1.2 trillion has been reported by the agencies as 
improper payments during that period of time. I think we have 
money going out the door that should not, and we have revenue 
that should be coming in that is not. The Congress struggles 
every year to stay under the discretionary caps and find tens 
of billions of dollars in savings. We have a situation where 
the government agencies have eliminated $144 billion in 
improper payments last year alone and $400 billion missing from 
revenue that should be collected.
    We have made contributions in these areas. I am confident 
that we could make additional contributions in this area----
    Senator Lankford. Yes, your opening statement implied that 
would be the priority of people that you would add. Is that 
true?
    Mr. Dodaro. That is true. It would be improper payments, 
tax gap, and also I mentioned the science and technology area. 
That is where we would add additional resources.
    Senator Lankford. Okay.
    Mr. Dodaro. Yes, I am particularly concerned about the 
improper payments; that the number is understated. That is 
particularly true for the managed care portion of Medicaid, 
which is now growing to about 40 percent of the Medicaid 
expenditures. I have been working with the State auditors. I 
have a dozen State auditors now that want to do more work 
because it is such a significant portion of the State budget. 
We are trying to work with some of the committees in Congress 
to get some support to the State auditors. I think that will 
have a good return on investment as well. We are working on 
multiple fronts here.

                           GAO WORK PRODUCTS

    Senator Lankford. Okay. Terrific. I understand about 97 
percent of the different work products that you create are 
congressionally requested, and about 3 percent are at your 
discretion. Help me understand some of the priorities that you 
see in the future and some of your leadership discretion----
    Mr. Dodaro. Right.

                              DEBT CEILING

    Senator Lankford [continuing]. And say this is not 
requested but it should be and we need to take a look at it.
    Mr. Dodaro. Right, right. Well, some good areas where it 
has been used in the past, include our work on the debt 
ceiling. Nobody asked us to do this work on the debt ceiling. 
We did work and found that impasses over the debt ceiling 
distorted and had a negative impact on the Treasury market. 
Treasury securities are regarded throughout the world as safe. 
However, we found that investors were avoiding Treasury 
securities that would become due when the extraordinary actions 
expired. In addition, we found that the Federal Government was 
paying additional interest costs because of that. After the 
last impasse period in 2013 it paid between $38 and $70 million 
in additional interest based on our estimates. The current debt 
limit affects liquidity in the secondary market for Treasury 
securities, increase interest costs and, because it is an 
after-the-fact measure, the current debt limit approach does 
not do anything to control the debt.
    Senator Lankford. Right.
    Mr. Dodaro [continuing]. I have made suggestions on how 
that could be changed.

                         HOUSING FINANCE MARKET

    I am very concerned about the housing finance market. We 
have used some of that authority to look at options for 
ultimate resolution for Fannie Mae and Freddie Mac. Since they 
have been in Federal conservatorship since 2008-09 timeframe, 
we need to resolve that. The Federal Government has absorbed 
all the risk. Two-thirds of the mortgages for single-family 
homes are either directly or indirectly supported by the 
Federal Government. If there is a downturn in that area, all 
that risk is with these organizations. The private mortgage 
market has not really returned to where it was before the 
recession hit.

                   FEDERAL GOVERNMENT FISCAL POSITION

    We have used it in doing long-range projections of the 
Federal Government's fiscal position. We issued a special 
report this past January that explains that the Federal 
Government is on a long-term unsustainable fiscal path, and 
calls for the Congress to develop a plan, recognizing you need 
to make a lot of short-term investments. We also need a long-
term plan to deal with this problem.
    Our simulations and that of CBO show the same trend, as 
well as OMB and Treasury and the financial report of the 
Federal Government all show in the next 15 to 25 years, absent 
any fiscal policy changes, you will have more debt held by the 
public as a percent of gross domestic product. This will go 
over the historic average, which is 106 percent in World War 
II, which means we will owe more than our entire economy is 
producing. It goes up beyond that to 200 percent and above.
    This is all going to happen when the disability portion of 
the Social Security Trust Fund also will have only 87 cents on 
the dollar to pay benefits by 2023. The Hospital Insurance 
Fund, Medicare by 2028 will only have 89 cents on the dollar. 
Social Security--The Old Age, survivors fund--by 2035 will only 
have 77 cents on the dollar to pay benefits. And in the midst 
of that, I think there is a good possibility that the multi-
employer plan of PBGC could be insolvent as well.
    We have very difficult issues to address. Those are the 
type of things. I use them for big-ticket things. We always let 
the committees know that we are working on on things that we 
decide to do under our own authority.

                             CYBERSECURITY

    Many things that we start under our own authority are then 
mandated by the Congress going forward. You know, for example, 
we put cybersecurity on the high-risk list--the first time we 
ever designated anything high-risk across the Federal 
Government in 1997--so this was 20 years ago we warned about 
the problems at the Federal level. Now we are inundated with 
requests from Congress to look at various cybersecurity areas 
over time. So, I use it judiciously----
    Senator Lankford. Right.
    Mr. Dodaro [continuing]. But in very important areas. There 
are no fishing expeditions here.
    Senator Lankford. Yes. No, I did not anticipate they were 
but----
    Mr. Dodaro. Yes.
    Senator Lankford [continuing]. Trying to get a feel for 
some of the----
    Mr. Dodaro. Yes.
    Senator Lankford [continuing]. Type of projects you are 
looking for in the future on that.

                 CHILD SECURITY AND RETIREMENT SECURITY

    Mr. Dodaro. Yes. Yes, there are two other ones now I 
mention. One is on child well-being. I am very concerned that 
there is no focus on children collectively across the Federal 
Government. Also no focus on retirement security. I am 
concerned about the overall picture in retirement security in 
our country with the baby boom generation retiring. I have 
talked about the Social Security issues. PBGC is also on our 
high-risk list, and they are about $74 billion right now in 
liabilities that exceed their assets. The private sector is 
offering fewer pension plans. If they do, they are defined 
contribution versus defined benefit. State and local 
governments are struggling with underfunding in some of their 
pension systems in some of the big States.
    The shift is more to individuals to save for their own 
retirement rather than through employers and the government 
programs. Most people in those cases do not have any money 
saved. About 40 percent of Americans do not have any money 
saved for retirement on their own. Those that have some savings 
are relatively modest.
    I want to bring this to Congress' attention in a broad 
picture and basically say we need a national strategy to deal 
with some of these issues. Those are a couple other examples of 
what we are using right now on our authority that will come to 
the Congress in reports this year.
    Senator Lankford. Great. Thank you.

                CBO'S INTEREST IN A LEVEL PLAYING FIELD

    Senator Murphy.
    Senator Murphy. Thank you, Mr. Chairman.
    Dr. Hall, I want to continue on your answer to Senator Van 
Hollen. You talked about your interest in a level playing 
field, and so it suggests that there are, you know, some 
values-based decisions that you make with respect to the 
release of your scores.
    My fear is that the way in which Congress is interacting 
with CBO is changing radically, so here is the list of CBO 
publications related to healthcare legislation that were 
released in 2009 and 2010. And it is a very long list. CBO 
started sending out reports in early 2009, and then began 
releasing estimates of the committee products once committees 
began their work so that, you know, by the fall of 2009, there 
were complete CBO reports that Members could look at as the 
basis for considering legislation on the Floor.
    What is happening here is very different. Republicans are 
not going through the committee process. There is no bill being 
produced by committee. They are negotiating the product in 
secret and then having confidential conversations with CBO. So, 
to the extent that you are interested, and these are your 
words, in a level playing field, what do you do about the fact 
that this relationship of confidentiality can be taken 
advantage of to effectively hold the CBO score until the last 
possible minute, giving Members of the minority party a very 
small amount of time to look at that legislation? This policy 
of waiting to release it until it was made public made a lot 
more sense back when committees functioned and you had a CBO 
score on the committee bill. Does your view of maintaining a 
level playing field change given the fact that you may no 
longer ever do a committee-based score on a major piece of 
legislation?
    Dr. Hall. Well, you know, we work confidentially basically 
because Congress finds it valuable for us to work 
confidentially. They can give us informal estimates and get 
some idea of what we think about them. I think it probably 
helps make better products. It is done all the time on a lot of 
different pieces of legislation. But I understand the issue, 
that during this time period, it is kept confident. And we do 
that because we are asked to.
    And I think it is sort of above my pay grade to recommend a 
change in that. I do think it would probably change the nature 
of a lot of the work. You know, the healthcare stuff is one 
particular case, but we do this on a lot of different things. 
And we do the confidential work for the minority side as well 
for committees, so one would have to sort of think about that. 
But we do do our best, like I say, when legislation becomes 
public. That's when we will no longer do the confidential work, 
and any work we do on that piece of legislation will be public. 
That is sort of the--I think it is sort of the--certainly the 
best that we can do in striking a balance.

         CBO'S ASSUMPTIONS ABOUT FUTURE IMPLEMENTATION OF AHCA

    Senator Murphy. Yes, I do not think we can ask you to make 
that change in policy unilaterally. I have raised it in the 
context of this hearing because, you know, I just think that 
you are being used by the Republican majority for political 
purposes, and I think it compromises your independence and it 
will encourage Democrats, when they are in the majority, to 
similarly use you, use that confidentiality to hold the CBO 
score until the last minute. That is at the basis of my worry 
about the way in which Republicans are acting today.
    Let me ask you a question about your House score. In the 
House--opponents of the Affordable Care Act have a favorite 
phrase, ``death spiral.'' They say that the Affordable Care Act 
is in a death spiral and that we have to rescue it from this 
death spiral. And I do not read your summary of the House 
healthcare bill as predicting that. You score out what would 
happen to the number of people without insurance in this 
country over a 10-year period of time with the House healthcare 
bill and without it.
    Without it, you come to the conclusion that at the end of a 
10-year-period of time there will be 28 million people without 
insurance, which is a slightly higher number than today, but 
with the House healthcare bill, 51 million people will be 
without insurance.
    And I want to ask you about the 51 number. I want to ask 
you about the 28. What assumptions are you making about the 
future of the implementation of the Affordable Healthcare Act 
to come to the conclusion that, by and large, the number of 
people with insurance will be stable over a 10-year period of 
time? Are you assuming that the administration is going to 
actively implement that act, and has the conduct of the 
administration over the course of the first, you know, 4 months 
of 2017 changed your opinion as to what the number of people 
with insurance will look like at the end of that 10-year period 
of time?
    Dr. Hall. Yes, we have not changed our view on 
implementation, and we hesitate to do that unless there are 
specific actions that will likely impact implementation, if 
anything, that we can see, and then we will take that into 
account on our baseline. So, as you say, our view of the 
Affordable Care Act, we assume a certain level of 
implementation going forward.
    One of the more difficult parts about that, of course, is 
the Medicaid side of things. And here, we are predicting what 
State governments are going to do. And so a big part of the ACA 
going forward and the AHCA would involve how many States decide 
to expand Medicaid or not going forward, so that is not really 
an issue of--less an issue, I guess of implementation by the 
administration, more of how we are projecting that States will 
behave going forward. And that is a difficult thing, but that 
is a big part of the uncertainty I think for us going forward 
in this number.

                     IMPACT OF A FLAT BUDGET ON GAO

    Senator Murphy. Just one question for you, Mr. Dodaro. What 
happens to you in a flat-funded budget? Are you able to 
maintain your existing staff levels in a flat-funded budget?
    Mr. Dodaro. No. There is no way we will be able to do that. 
In a flat-funding scenario, we would lose about 200 people by 
the end of the year. We would be at our lowest staff levels 
since the 1930s if that happened. We had been hovering around 
that staffing level since the sequestration occurred. During 
that period we lost 15 percent of our staff. Thanks to this 
subcommittee, for the last few years we have regained some of 
that and been able to rebuild. Any flat-funding scenario would 
send us back down to that scenario and affect our ability to 
provide service to the Congress.
    Senator Murphy. And who do you----
    Mr. Dodaro. It would have pretty dramatic effects.
    Senator Murphy. Who do you lose--you know, who are those 
200 that you would lose?
    Mr. Dodaro. Well, that is about what our attrition is every 
year.
    Senator Murphy. Yes.
    Mr. Dodaro [continuing]. So that would be normal attrition 
with zero replacement.
    Senator Murphy. Right.
    Mr. Dodaro. I have often likened us to being a college 
football coach where the seniors leave and there are no 
freshman or sophomores coming in. You just tell the juniors to 
work harder, and it is a problem. It would have very serious, 
negative consequences on us to be in a flat-funding scenario. 
It would ill serve the Congress.
    Senator Murphy. All right. Thank you. Thank you, Mr. 
Chairman.
    Senator Lankford. Can I ask a follow-up question on that as 
well, why with flat funding you would lose 200 people? Help 
provide additional clarity to that. Why if the funding stayed 
static, why a loss of 200 people?
    Mr. Dodaro. Salary increases for the staff. Based on the 
cost of living adjustment increased this year and next raises 
staff costs so it costs more to keep the same level of staffing 
on board because of that increase in salary costs.
    Senator Lankford. Even when you have seniors that are 
leaving and you are hiring freshman, which are cheaper than 
seniors?
    Mr. Dodaro. Yes.
    Senator Lankford. Yes.
    Mr. Dodaro. We would not hire during that period of time to 
replace attrition. Not all of the 200 people that leave are at 
senior levels--I was using it as an analogy----
    Senator Lankford. Sure. I understand.
    Mr. Dodaro [continuing]. Of replacement scenario.
    Senator Lankford. I was trying to get the----
    Mr. Dodaro. Maybe I should have used the chemistry----
    Senator Lankford. Yes, I am just trying to get the 
details----
    Mr. Dodaro [continuing]. Analysis. Part of the 200 people 
that leave will be junior people, too. About 40 percent of the 
people will be people retiring are at more senior levels. The 
other 60 percent are people at junior levels that move on, take 
other positions, have changes in family----
    Senator Lankford. Okay.
    Mr. Dodaro [continuing]. Circumstances.

                ESTABLISHMENT OF SENIOR-LEVEL POSITIONS

    Senator Lankford. Great. Thank you.
    Dr. Hall, let me ask you this question, same question I 
asked Mr. Dodaro earlier about the omnibus funding, and that is 
we included some language to establish senior-level positions 
to allow the agency to try to retain folks. Has that been 
implemented? How is that going? Has that been helpful so far?
    Dr. Hall. Well----
    Senator Lankford. I know it is early.
    Dr. Hall. Yes, well, first of all, thank you for providing 
the authority.
    Senator Lankford. Yes.
    Dr. Hall. I think that will be very helpful to us. It 
really impacts our most senior-level people. We have only about 
10 people, and those folks, compared to their executive branch 
counterparts, were literally about $15,000 per year difference, 
falling behind, so that is going to make a difference. I think 
we are going to not fully implement, and probably in 2018 we 
will start trying to implement that. But it will not have a big 
impact I think on our spending because it is only a few people, 
but our retention will make a really big difference because we 
have lost a number of senior managers, and most of them have 
gone to higher-paying jobs.

                           CBO'S TRANSPARENCY

    Senator Lankford. Last year at this same hearing you had 
mentioned some of your goals for the next year and things that 
the agency could improve on. One of the things that you 
mentioned last year the agency can improve upon was 
transparency. How is that going? Tell me how the agency has 
improved transparency in the last year.
    Dr. Hall. Sure. We have worked on transparency in almost 
everything that we do to be honest, and a lot of it starts with 
our legislative cost estimates. We are spending a little extra 
time. It is always this rush where we are getting things done 
as quickly as we can but then explaining what we have done very 
carefully. We have improved our efforts on that. The recent ACA 
estimate I thought was a good example of that because that is 
really a fairly long document where we tried very hard to 
explain things.
    We made extra effort to get in to see Members and explain 
things when people ask. You know, every time we produced an 
estimate or anything, if anybody has any questions or any 
problems with it, we are happy to go in and talk about what we 
have done.
    We have produced a number of extra products, supplementary 
products explaining things. One of the things, for example, was 
where we have done a dynamic scoring of the ACA a couple years 
ago, and what is the GDP effect. You know, we had some 
estimates in that of an ACA repeal, and then later, we produced 
this little supplementary report where we talked about how we 
estimated the labor supply effects of the ACA, and explained 
that in some detail.
    That was an effort in transparency, a number of things like 
that. We are trying very hard. We are talking about putting up 
some of our--more of our documentation of our models. We 
literally have probably hundreds of models that we use. And it 
is very hard to put the models themselves up but documentation 
we are putting up quite a bit, so it is a lot of little things 
that we are doing to increase transparency, and as always, we 
are open to ideas.
    Senator Lankford. Yes. So, help provide some clarity. As 
you mentioned, it's hard to be able to put the models up 
themselves----
    Dr. Hall. Right.
    Senator Lankford [continuing]. That we can get a chance to 
see basically the calculator that you put together. Why would 
that be?
    Dr. Hall. Well, some of them are very, very complicated, 
and it takes a lot of work to prepare things to put into the 
model. And the models--what the analogy is like, the human 
aspect of almost everything we do is really great, even with a 
model involved. One of the things that we are trying to do and 
what we can do is, for example, updating the healthcare stuff. 
We are updating the healthcare model. We will try to document 
that as we go along. And we will see about trying to make it 
available. It is hard to do because it is hard for people to 
understand it. It takes a lot of time to support it.
    Senator Lankford. Right. And it does, and that is part of 
the challenge is that every time a decision is made on 
something that requires a model, every economist pokes their 
head up at the same time and says what were the assumptions in 
that model----
    Dr. Hall. Right.
    Senator Lankford [continuing]. Who made the model? Did they 
take this and this and this into account?
    Dr. Hall. Right.
    Senator Lankford. Typically, the answer from Congress is we 
do not know. We do not know what assumptions, we do not know 
what other alternatives were considered. We do not know how it 
was ran based on what other products were not there. That is 
part of the difficulty because we will have--any given piece of 
legislation, there may be five different models out there, one 
of them being CBO, and we do not see all the assumptions on it. 
That would help us just to be able to look at it.
    Obviously, we ask you and require of you to be a neutral 
arbitrator, but seeing the model helps us to be able to know, 
to tell us the assumptions that were there in that.
    Dr. Hall. We are certainly trying to address that with the 
documentation. We are making the assumptions clear and 
providing enough detail that somebody else could actually sort 
of reproduce what we have done. That is sort of the goal.
    Senator Lankford. Yes, that would be great, that basic 
science to be able to come back and reproduce it and somebody 
else would be able to look at it and run the same numbers in 
the same type of model and get the same results.
    Dr. Hall. Yes.
    Senator Lankford. Otherwise, you get four economists 
together and you get 4.785 different results as you run through 
it.
    Dr. Hall. Yes.
    Senator Lankford. Let me recognize Senator Kennedy.

                   COMPARING ACA PROJECTION TO ACTUAL

    Senator Kennedy. Thank you, Mr. Chairman. I apologize, 
gentlemen, for being late. I was in another committee.
    Dr. Hall, let me preface my remarks by saying I am a big 
fan of your agency. I have followed you through the years, and 
I know you and your colleagues are in good faith and none of us 
are clairvoyant. Have you ever--let me get more specific. 
Looking back to when we passed the Affordable Care Act, 
Congress did, how much did CBO predict it would cost, and now 
with, what, 7 years' worth of experience, how much has it cost?
    Dr. Hall. Yes, you know, I do not have the numbers right in 
front of me, but I will say we have tried very hard to keep up 
with the actual data once it came in. You can remember a few 
years ago----
    Senator Kennedy. I understand but----
    Dr. Hall [continuing]. It was----
    Senator Kennedy. But ballpark, how close were you?
    Dr. Hall. On the spending, I do not think we were too far 
off on the spending side of things, and I think we were pretty 
close on the number of uninsured as well. The part that we 
struggled most with was with something like the number of 
people on exchanges versus number of people on Medicaid. That 
shifting between those two groups turned out to be difficult. 
Not as many people did the exchanges. More people did Medicaid.
    Senator Kennedy. Do you recall, did you make a prediction 
or an estimate--not a prediction I guess is the wrong term--did 
you make an estimate at the time about the cost and the number 
of people that would join Medicaid?
    Dr. Hall. Yes, we did, but I do not--I am sorry, I do not 
have it in my memory right now.
    Senator Kennedy. Sure. Do you know how close you turned out 
to be?
    Dr. Hall. I do not offhand.
    Senator Kennedy. Have you gone back and looked?
    Dr. Hall. Yes, we have gone back and looked, and we have 
done some work on that. I would be happy to follow up----
    Senator Kennedy. Could you----
    Dr. Hall [continuing]. On that.
    Senator Kennedy. Could you get me that information from----
    Dr. Hall. Sure.
    Senator Kennedy [continuing]. Medicaid and for your 
estimates on the Affordable Care Act----
    Dr. Hall. Yes.
    Senator Kennedy [continuing]. And now that we have, what, 7 
years' worth of experience, the reality.
    Dr. Hall. Okay. And let me just say we will do what we can. 
It is a little difficult because so many other things change at 
the same time. It is hard to know, but we will tell you what we 
know. We will tell you what we know about how well we did on 
the estimate.
    Senator Kennedy. Well, what I am looking for is something 
pretty simple.
    Dr. Hall. Okay.
    Senator Kennedy. Here is what we said would happen; here is 
what happened.
    Dr. Hall. Okay. We can do that.

    [Clerk's Note: See the answer to Senator Kennedy's question 
above in the ``Additional Committee Questions'' at the end of 
the hearing.]

    Senator Kennedy. Okay. When President Bush passed his 
prescription drug plan, did CBO do an estimate of the cost 
then?
    Dr. Hall. Yes.
    Senator Kennedy. Okay. Now, we have a lot of experience 
with the prescription drug plan.
    Dr. Hall. Right.
    Senator Kennedy. What did you estimate it would cost, and 
what has it cost? Do you have that data?
    Dr. Hall. Yes, I do not know right off the top of my head. 
I am happy to follow up, though. I am sorry I do not have those 
numbers.

    [Clerk's Note: See the answer to Senator Kennedy's question 
above in the ``Additional Committee Questions'' at the end of 
the hearing.]

    Senator Kennedy. That is okay. That is all right. Do you 
customarily, as a practice at CBO, continually look back and 
say, okay, we predicted this, it turned out this, this is what 
we got right, this is what we got wrong, here is how we can 
learn from this and do better in the future?
    Dr. Hall. Yes, we--once a year, we go through all the 
accounts and see how the cost of programs and how many people 
are taking up, and we adjust that on our baseline. So once a 
year, we actually adjust all those numbers.
    We do not do a full analysis of individual pieces of 
legislation because it is so hard, but one of the things that 
we are actually doing right now, every year, we have been 
looking back at all of our economic forecasts and looking at 
our record; how do we do compared to other people on our 
economic forecast? And a little over a year ago we did that 
with revenues, and right now, we are looking at expenditures. 
How have we done in forecast----
    Senator Kennedy. Okay.
    Dr. Hall [continuing]. Spending compared to the actual 
outcomes, so we are going to have a big-picture view of that 
actually sometime this year I think. That will give you a big 
picture about how well we do. And it is exactly for the reason 
that you are talking about. We want to try to be better at what 
we do.
    Senator Kennedy. Okay. Well, do not misunderstand my 
questions. I am a big fan.
    Dr. Hall. Sure.
    Senator Kennedy. I realize that when you give folks a 
number they like, you are the best thing there is, and when you 
give them a number they do not like, it is you do not know what 
you are doing. And I understand that. That is human nature.
    But I do think it is a good idea to look back and say, 
okay, this is where we were then and this is where we are now. 
And if you could get it for me for the prescription drug 
program, for the Medicaid expansion, and for the Affordable 
Care Act in general.
    Dr. Hall. Okay.
    Senator Kennedy. I do not really have any questions of the 
general. I wanted to thank him for his good work. I am a big 
fan. I had my staff do a little research. You have a return on 
investment of $112 return for every $1 in taxpayer money you 
spend. I will take a dozen of those. That is pretty 
extraordinary.
    I really want to thank you for the hard work you have done 
in so many areas but particularly improper payments. And I just 
wanted to--I am fully supportive of your efforts. I know you 
are not the most popular person in America at times, too, but 
you have to have folks--the metrics are important. The focus in 
government today is too much on how much money we are spending 
as opposed to what are the metrics, what are we getting for the 
money.
    Anyway, I probably went over. I am sorry, Mr. Chairman.
    But thank you both for your service.
    Mr. Dodaro. Thank you very much.

            CBO MODELS AND ALTERNATIVE PROJECTION/ASSUMPTION

    Senator Lankford. Thank you, Senator Kennedy. Thank you.
    Let me run a couple other questions past you and see if 
there are others that have additional questions as well.
    Just to be able to finish up, Dr. Hall, on the modeling 
aspect of it. During the budget hearing last year as well, you 
were also asked specifically about the healthcare model, said 
you were rebuilding it, and when it was rebuilt, you would make 
that publicly available. That is still one of those things that 
would be very helpful to get, that rebuilt product and whatever 
you are revising in that 2016 to 2017 time, and then some ideas 
of why you felt like it needed to be rebuilt. I want to be able 
to get better information.
    CBO has been very good about putting out--and it is a 
fairly recent addition--alternative futures basically.
    Dr. Hall. Right.
    Senator Lankford. Here is an alternative projection in 
baseline. You have been tasked to look at what is, but CBO has 
been very good at saying I know what is, but I also know what 
Congress will probably do. The greatest example of that was 
things like the SGR, the ``doc fix'' for years. CBO would look 
at that and say Congress has fixed that every year, they come 
up with a new way to fix that every year, we can put that in 
the baseline or we can assume they are going to do what they 
have done the last 15 years. And you have made some of those 
assumptions. How is the progress going on some of those things 
to be able to look at it and to provide different opinions?
    So, again, in your modeling to be able to look at it and 
say this is what is, but I would assume in the conversation 
around the table in the closed room there is also some frequent 
statements that say we all know this is what is really going to 
happen. This is what we have as a legislative mandate right 
now, what is in front of us. This is what is really going to 
happen.
    Dr. Hall. Sure.
    Senator Lankford. Is that going to continue to progress in 
other ways to provide to Congress new models? It is basically 
two opinions of what was happening in the room. I am not trying 
to double your work, but that opinion is already there; we just 
do not get that second one.
    Dr. Hall. Okay. Yes. We will take a look. I am not sure 
what we have planned. To be honest, our biggest alternative 
path that we talked about we do not do anymore because it has 
sort of come true.
    Senator Lankford. Right.
    Dr. Hall. So we will have to think about if there is 
another one. One that we are going to work on carefully is, you 
know, we are asked to assume, for example, that things like the 
trust funds are fully paid out even though the law says they 
cannot pay out, so we are going to work on that alternative 
assumption of, well, what if they are not?
    Senator Lankford. Right.
    Dr. Hall. And that will be one of our alternate 
assumptions. And we would be happy to think about some others.
    Senator Lankford. Again, that is helpful information to 
Congress----
    Dr. Hall. Right.
    Senator Lankford [continuing]. As we work through the 
process to be able to see what is forecasted and what actually 
is. Both those things side by side give us the information I 
think that we need.
    Dr. Hall. Okay.
    Senator Lankford. I would also say in what opinions come 
out, do not feel an obligation to I guess water it down to the 
lowest common denominator Congress can handle. There were split 
decisions in this as we discussed it, here is one option--here 
is the general piece. Here is one option, here is another one, 
what it could be, and be able to give us different varieties of 
it and to be able to lay that out.
    Dr. Hall. Okay.
    Senator Lankford. We are fine to be able to see that. More 
data in its rawest form is helpful to us rather than its 
refined lowest-common-denominator-type form. Does that make 
sense?
    Dr. Hall. Sure.
    Senator Lankford. So that is extremely helpful to us.
    I would also be interested to be able to get from CBO, as 
you do the scoring, the things that everyone around your table 
and every economist there knows good and well is not true. For 
instance, my favorite budget gimmick, the changes in mandatory 
programs. Everyone knows that is not real, but yet the law 
allows it. And in the scoring, that scores. It is really 8, 9, 
$10 billion more in deficit spending, but on paper, it is not 
more deficit spending. In real life, it is.
    There are things that your economists see that I want you 
to know we would be welcome to be able to receive back, whether 
that is a note, a footnote to say this is accomplished by 
changes in mandatory programs, which is allowed by law, but it 
will increase deficit spending by this same amount. That gives 
us information.
    Dr. Hall. Right.
    Senator Lankford. So do not pull back from giving us 
accurate information for the sake of saying we have to play the 
Washington game on things. You see that in multiple areas, I am 
confident. I just noted one of those to you in the changes in 
mandatory programs that, again, other CBO directors that I have 
talked to have all said the law says, so we have to do it that 
way, but everyone at the table knows it is not right. Does that 
make sense?
    Dr. Hall. Sure.

                                TELEWORK

    Senator Lankford. So even a notation to be able to help 
explain it for what it really is would be helpful to get good 
clarity for everyone that is getting a chance to go through 
that document.
    One other quick question for Mr. Dodaro as you go through 
this, and that is telework. I know it is something that you 
have explored before and have looked at not only at GAO but in 
other agencies and entities. I would be interested to be able 
to know in the future, as you are looking at telework, on how 
it can be evaluated for metrics. Is the taxpayer getting its 
maximum benefit? How do you evaluate supervision in that? What 
basic metrics can be put into place or areas where there are no 
metrics. There is telework, but we do not know if it is helpful 
or not helpful.
    Again, it may be great for morale for employees. Is it 
great for the taxpayer as well to be able to have that as a 
good fit? And I do not have a preconceived notion----
    Mr. Dodaro. Right.
    Senator Lankford [continuing]. To say this does not work, 
but that is one of those many areas that, as multiple agencies 
look at both the cost----
    Mr. Dodaro. Right.
    Senator Lankford [continuing]. Of office space and also the 
value of work, and we have multiple agencies that have a large 
backup right now and backlog of work that needs to be done, but 
yet they have a high percentage of telework folks as well, to 
say is there a correlation between those or is that just 
coincidental----
    Mr. Dodaro. Yes.
    Senator Lankford [continuing]. Does it make sense?
    Mr. Dodaro. There are some clear areas where there should 
be metrics, cost is one of them in terms of the office space, 
also transit benefits. There are other measures of cost. Each 
agency will have to have different metrics in terms of the 
work, the quality of the work, as well as the productivity of 
staff.
    Senator Lankford. Right.
    Mr. Dodaro [continuing]. And the out-put. We will be 
looking at those issues. We are doing that within our own 
agency----
    Senator Lankford. Right. And we had talked about that 
before.
    Mr. Dodaro [continuing]. As well and it is very important. 
I agree with you. I think it has big benefits from the 
employees' standpoint. I think it has good benefits from the 
Government's standpoint if it is managed----
    Senator Lankford. If----
    Mr. Dodaro [continuing]. If it is managed properly----
    Senator Lankford. If----
    Mr. Dodaro [continuing]. And if you have good metrics. 
There are conditions on that part of it.
    Senator Lankford. I have had some conversations with some 
Federal managers that have said they have very strong high 
walls that they cannot supervise on telework days and it has 
made it very difficult to be able to get good metrics. And when 
I ask supervisors of different agencies how is it going, how is 
that working, their answer is ``We do not know.'' That is a 
problem----
    Mr. Dodaro. Yes.
    Senator Lankford [continuing]. When we have literally 
thousands of people that are teleworking, and we do not know if 
it is working or not. In some agencies, it may be working 
exceptionally, but just the last several months, IBM, after 
years of doing telework----
    Mr. Dodaro. Right.
    Senator Lankford [continuing]. Decided this is not working 
and they are pulling people back in----
    Mr. Dodaro. Right.
    Senator Lankford [continuing]. And trying to determine 
that. So, there are some trends going the other way based on 
effectiveness.
    Mr. Dodaro. I am dispatching some people in GAO to talk to 
IBM and Aetna. You have had Yahoo and others. I want to see 
what the lessons learned, where did it go off the rails. What 
could be applied to better manage it if we are going to 
continue in that----
    Senator Lankford. That is great.
    Mr. Dodaro [continuing]. Area.
    Senator Lankford. Senator Murphy.
    Senator Murphy. Thank you, Mr. Chairman.
    I think Senator Kennedy's point about constant reevaluation 
is an important one, but just to rise to the defense of CBO's 
ability to score on healthcare, here is the bottom line that 
you were referencing on the ACA score. Initially, CBO said that 
by 2016, 92 percent of Americans would have insurance, going up 
from 83 percent. CBO revised that after the Supreme Court 
decision where it was held that States did not have to accept 
the Medicaid allowance expansion, revised that number down to 
89 percent of Americans having insurance by 2016. That is the 
number today, 89 percent of Americans have insurance today.
    But, to your point, inside that, there were and are 
differences. There was a belief that there would be a lot more 
people on the exchanges. There are not as many people on the 
exchanges as CBO estimated for two reasons: One, many fewer 
employers dropped coverage than CBO estimated, thus more people 
stay on their employer coverage; and second, Medicaid expansion 
actually insured more people, about 4 million more people.
    As to cost, you know, ballpark at $130 billion was the 
estimate I think by 2016. The number is about $110 billion, so 
it is a little bit less, but it is, you know, not well outside 
of the estimate, so I think it is an important point that we 
should constantly go back and reevaluate, but those numbers are 
pretty solid.

                POSTPONEMENT OF BIG CHANGES IN MEDICAID

    I just have one last question for you, Dr. Hall. Again, in 
the theoretical world where you are working to score a 
Republican healthcare proposal that we are going to be voting 
on in 7 days, one of the points of discussion is a postponement 
of some very big changes in Medicaid such that the losses you 
estimated in Medicaid coverage in the House bill would not 
occur until later in the 10-year window. And, you know, I have 
no idea what that postponement is. Some people say it will be a 
3-year postponement; some people suggested it will be a 7-year 
postponement.
    But to the extent that the Medicaid--the reduction in 
people enrolled in Medicaid happens outside the 10-year window, 
will you opine on that subject? Let us say they start the 
Medicaid changes in year 9, which means that year 10 will not 
look that bad, but years 11 through 20 will look pretty 
catastrophic. Would something like that be included in an 
estimate theoretically?
    Dr. Hall. Yes, theoretically. If we know there is going to 
be a chance outside the window and we have some notion of how 
big it will be, we will talk about it.
    Senator Murphy. Okay. Thank you.
    Senator Lankford. Senator Kennedy.
    Senator Kennedy. I just wanted to mention one other thing 
to the general that I forgot. I read you and your staff's 
analysis comparing public sector Federal Government employee 
salaries and benefits to private sector, and it was excellent. 
I mean, you broke it down. You explained your model. You 
controlled for a lot of different factors. It was a very 
reasoned, rational approach, and I wanted to thank you for 
that, too. I forgot about it. And I hope you will do that 
periodically. I learned a lot. As I recall, we are underpaying 
if you will at the higher-level positions and overpaying at the 
lower level, and a lot of--to the extent that we are 
overpaying, that is not meant to be pejorative, but we are 
paying more for the comparable job. It is in retirement 
benefits it sounds to me like.
    Mr. Dodaro. I appreciate your comments, but a point of 
clarity. I believe that was a CBO report. You know, people mix 
us up all the time. Sometimes it is for my benefit, sometimes--
--
    Senator Kennedy. Well, then I----
    Mr. Dodaro [continuing]. It is not to my benefit----
    Senator Kennedy [continuing]. Direct that to Dr. Hall.
    Mr. Dodaro [continuing]. But----
    Senator Kennedy. It was an excellent report----
    [Laughter.]
    Senator Kennedy [continuing]. And you are an honest 
American because you could have taken full credit. [Laughter.]
    Mr. Dodaro. No, I was not going to do that.
    Dr. Hall. I was quietly feeling good about it.
    Senator Kennedy. Well, then, let me tell you, Dr. Hall, it 
was excellent.
    Dr. Hall. Well, thank you.
    Senator Kennedy. I learned a lot, and it was very fair. You 
adjusted for all the different circumstances.
    Dr. Hall. Thank you.
    Senator Lankford. Okay. The two of you look so much alike 
that it is----
    [Laughter.]

                      CENTER FOR AUDIT EXCELLENCE

    Senator Lankford [continuing]. Just get you confused all 
the time.
    Let me ask one quick question and see if there are any 
closing comments on this. Gene, the Center for Excellence was 
supposed to be self-funded with revenue.
    Mr. Dodaro. Right.
    Senator Lankford. That was the theory initially when it 
began. How is it going so far? You are a couple years into it 
or a year-and-a-half or so into it. Is the----
    Mr. Dodaro. Right.
    Senator Lankford [continuing]. Revenue coming in as you 
expected to be able to cover expenses?
    Mr. Dodaro. Yes. The business plan that we called for that 
was approved by the committees was self-funding after a 5-year 
period of time. We are in our second year of funding now. 
Receipts are in excess of the first year. It is looking pretty 
good, and I hope to get to the self funding point. We have a 
number of commitments underway. We are negotiating. We have a 
standing memorandum of understanding now with USAID so they can 
access our services to provide training to auditors, 
particularly where the United States is providing foreign 
assistance, to have those auditors provide greater coverage and 
flexibility.
    We are providing assistance to the country of Georgia 
through a World Bank arrangement right now to improve their 
information technology auditing. A number of State and local 
governments and local entities are also using our services. We 
will provide a report to the subcommittee. We had to work 
through getting arrangements in place. We brought in revenue 
the first year. This year, I think we are about triple the 
first year----
    Senator Lankford. Okay.
    Mr. Dodaro [continuing]. In revenue.
    Senator Lankford. So you are on track?
    Mr. Dodaro. We are on track.
    Senator Lankford. Okay.
    Mr. Dodaro. I will know for sure the third and fourth year. 
If we are not going to be self-sustaining, then we will have to 
come to a different conclusion. I never meant it to be 
subsidized to any significant amount. It is yielding a lot of 
benefits.
    Senator Lankford. Sure. Yes. At some point, I guess 5, 10 
years out, we will be able to audit every country in the world 
except our own Pentagon. [Laughter.]
    Mr. Dodaro. I kid the people at GAO sometimes. You know, we 
changed our name from the General Accounting Office to the 
Government Accountability Office. Maybe we could be the global.
    Senator Lankford. Yes, the Global Accountability Office.
    Mr. Dodaro. Just kidding. [Laughter.]
    Senator Lankford. Any other quick comments from anyone?
    Thank you both for being here. Dr. Hall, this is not to 
leave Gene out in any way, but you have got a very busy 
schedule right now and a lot of pressure on you as well. I 
appreciate you taking the time to both prepare to be here and 
to be here, and with all that is happening in your schedule, we 
do appreciate it very much.

                     ADDITIONAL COMMITTEE QUESTIONS

    This does conclude the Legislative Branch Appropriations 
Subcommittee hearing regarding 2018 funding for the Government 
Accountability Office, and the Congressional Budget Office. The 
hearing record will remain open for 7 days, allowing Members to 
submit statements or questions for the record, which should be 
sent to the subcommittee by the close of business on Wednesday, 
June 28th, 2017.
    [The following questions were not asked at the hearing, but 
were submitted to the Departments for response subsequent to 
the hearing:]
                 Questions Submitted to Dr. Keith Hall
              Questions Submitted by Senator John Kennedy
    Question. How do the original CBO cost estimates compare with the 
actual budgetary effects of the Medicaid expansion under the Affordable 
Care Act (ACA) and of the ACA in general?
    Answer. In CBO's original cost estimate, which was released in 
March 2010, the agency projected that spending in 2016 on people made 
eligible for Medicaid because of the ACA would equal $68 billion. The 
amount that was actually spent, CBO now estimates, was $65 billion. 
However, in the March 2010 projection, CBO had anticipated that all 
States would adopt the ACA's expansion of eligibility for Medicaid. In 
June 2012, the Supreme Court ruled that that expansion was optional for 
States. CBO's projection in July 2012, which incorporated that ruling, 
was $38 billion for 2016--about 60 percent of the currently estimated 
amount of $65 billion.
    It is difficult to identify the budgetary effects of the ACA in 
general, because the budgetary effects of many provisions are embedded 
in the spending for preexisting programs--Medicare, for example--and in 
broad categories of Federal tax revenues. But the effects of health 
insurance subsidies can be more readily identified. In March 2010, CBO 
and the staff of the Joint Committee on Taxation projected the cost to 
the Federal Government of premium tax credits and cost-sharing 
subsidies for health insurance purchased through the health insurance 
marketplaces established under the ACA. The projected cost was $77 
billion for fiscal year 2016. That projection proved roughly twice as 
large as the estimated actual amount, about $36 billion, primarily 
because the agencies overestimated the number of people who would 
enroll in the marketplaces.\1\
---------------------------------------------------------------------------
    \1\ For discussion of the reasons for changes in those estimates 
since the enactment of the ACA, see Congressional Budget Office, 
Federal Subsidies for Health Insurance Coverage for People Under Age 
65: 2016 to 2026 (March 2016), p. 23, www.cbo.gov/publication/51385.
---------------------------------------------------------------------------
    Question. How does the original CBO cost estimate compare with the 
actual budgetary effect of Medicare's prescription drug insurance 
program?
    Answer. In CBO's original cost estimate, which was released in 
November 2003, the agency projected that spending in 2013 for the 
prescription drug benefit known as Part D would equal $99 billion. That 
projection proved about twice as high as the actual amount spent in 
2013, $50 billion. A combination of broader trends in the prescription 
drug market and lower-than-expected enrollment in Part D contributed to 
that difference.\2\ (This answer focuses on 2013 because CBO's original 
cost estimate covered the period through 2013.)
---------------------------------------------------------------------------
    \2\ For discussion of why the Part D program cost less than 
anticipated, see Congressional Budget Office, Competition and the Cost 
of Medicare's Prescription Drug Program (July 2014), pp. 5-12, 
www.cbo.gov/publication/45552.
---------------------------------------------------------------------------
                                 ______
                                 
               Questions Submitted by Senator Marco Rubio
    Question. In your testimony, you note that the CBO's requested four 
new analysts for 2018 would work on the ``dynamic analysis of certain 
legislation.'' How can CBO's dynamic analysis be improved?
    Answer. Examining the effects of Federal policy on the economy is 
called dynamic analysis. In CBO's view, those effects differ in the 
short term and the long term. In the short term, policy affects the 
economy primarily by changing the overall demand for goods and 
services. In the long term, policy affects the economy primarily by 
changing the incentives to work, save, and invest; by altering the 
amount of funds available for private investment; and by affecting 
private-sector productivity.
    CBO conducts dynamic analysis with various kinds of macroeconomic 
models, depending on the policy proposal being examined. The agency 
considers the latest findings from economics and business research in 
developing those models, so they reflect the latest thinking among 
experts in the field. CBO also conducts original research to estimate 
the economic and budgetary effects of policies for which there are few 
or no estimates available from other sources.
    CBO has proposed adding four new analysts in fiscal year 2018. Of 
those, one would conduct dynamic analysis. (Of the others, two would 
analyze healthcare and one would analyze appropriations.) The new 
analyst would also give CBO more capacity to conduct projects to 
improve the models. Such projects include the following:
  --Research and model development to allow CBO to conduct dynamic 
        analysis of a broader set of policies and to reduce the time 
        needed to respond to Congressional requests;
  --Better integration of estimates from different macroeconomic 
        models;
  --A more comprehensive analysis of how different kinds of policies 
        affect the economy in the longer term;
  --A more detailed specification of how changes in the economy affect 
        the Federal budget;
  --A more detailed characterization of the sources of uncertainty 
        underlying CBO's estimates, including uncertainty stemming from 
        the models as well as from broader economic, demographic, and 
        policy considerations;
  --A more detailed analysis of the effects of Federal investment (that 
        is, spending on infrastructure, education, and research and 
        development) on private-sector productivity; and
  --A modification of CBO's overlapping-generations model to better 
        estimate the effects of changes to social security and Federal 
        health insurance programs on the U.S. economy.\3\
---------------------------------------------------------------------------
    \3\ An overlapping-generations model focuses on the working, 
saving, and retirement decisions of households over their life cycles. 
Because that model explicitly incorporates households' response to 
changes to future policy and includes households of different ages and 
in different socioeconomic groups, it is particularly helpful for 
analyzing changes to Social Security and Medicare programs.
---------------------------------------------------------------------------
    In addition, CBO is currently working on more comprehensive 
documentation of its models for dynamic analysis. Better documentation 
will make the agency's methods more accessible to the Congress, outside 
experts, and the interested public.
    Question. One issue that I am interested in exploring is new ways 
of dynamic scoring for the child tax credit and paid family leave, both 
policies with tremendous economic impact not easily identified in 
scoring models.
    There is a wealth of research surrounding the social and economic 
benefits of the child tax credit: from reduced crime, increased 
educational achievement, and labor force participation, to changes in 
birth rates that affect the sustainability of pension and retirement 
programs. How can we more accurately measure the returns to investment 
in our children?
    Has CBO considered expanding the scope of what research might be 
acceptable to best capture the costs and benefits of child subsidies?
    Answer. CBO has assessed the economic and budgetary effects of 
changes to some Federal programs that provide benefits to families and 
children. For instance, in undertaking its macroeconomic analysis of 
the President's 2017 budget request, CBO assessed the economic and 
budgetary effects of increasing spending for programs and activities 
such as Head Start and primary and secondary education.\4\ Such 
programs, because they provide supervision for children, make it easier 
for parents to work and can therefore boost parents' earnings in the 
short run. In the longer run, such programs can also boost earnings by 
increasing the skills that children bring to the labor force when they 
become adults. In its analysis, CBO found that most of the economic 
effects of changes in spending for such programs that would occur 
within the 10-year budget window would tend to be small and would 
result from changes in the amount of labor supplied by parents. The 
economic effects resulting from changes to children's subsequent 
earnings would probably be larger, but they would occur later and are 
more uncertain.
---------------------------------------------------------------------------
    \4\ Congressional Budget Office, A Macroeconomic Analysis of the 
President's 2017 Budget (June 2016), www.cbo.gov/publication/51625. For 
additional information, see Congressional Budget Office, ``How CBO 
Analyzes the Economic Effects of Changes in Federal Subsidies for 
Education and Job Training,'' CBO Blog (May 3, 2017), www.cbo.gov/
publication/52361.
---------------------------------------------------------------------------
    Expanding the child tax credit would probably affect people's 
earnings and the Federal budget through similar channels. Measuring 
those effects accurately would require understanding how the credit 
affected parents' earnings in the short run and children's in the 
longer run. Expanding the credit would probably increase the incentive 
to work and earn for some parents (mainly lower-income ones, if under 
the expansion they received a greater amount of money for each $100 
that they earned, up to a maximum) while reducing that incentive for 
other parents (mainly higher-income ones, if they received a greater 
reduction in their credit for each $100 that they earned). Those 
effects are largely offsetting, however, so expanding the credit 
probably would not significantly affect parents' earnings in the short 
run. There is some evidence that the credit improves children's 
eventual college attendance and boosts their earnings when they become 
young adults, but most of those effects do not occur within the 10-year 
budget window.
    CBO has studied many mechanisms through which Federal programs that 
provide benefits to families and children could affect the economy, 
such as the short-run effects on earnings and labor supply and the 
long-run effects on education and earnings just mentioned. But there 
are other ways in which such programs might affect well-being--for 
instance, by affecting crime, health, or longevity, changes that could 
have some fiscal impact. CBO may incorporate those effects into its 
future analysis as more research is published.
    Question. One of the important roles that CBO plays for the 
legislative branch is that of referee: your scores and analysis shape 
the congressional debate over policy. Due to this influence, the 
behind-the-scenes assumptions that determine these scores matter a good 
deal to Congress. And in a time of increasing diversity and 
decentralization, a more open scoring process may produce better, more 
accurate outcomes by increasing the number of inputs for a score.
    What role does transparency play in CBO scoring?
    Have you considered implementing open-source modeling, in which 
outside analysts could test CBO's assumptions?
    What kinds of congressional requirements for CBO would need to be 
changed in order to ease a transition to a more open-sourced model?
    Answer. CBO works hard to make its analyses of legislative 
proposals transparent. To begin with, CBO's cost estimates go well 
beyond simply presenting results; instead, the agency explains the 
basis of its findings so that Members of Congress, their staff, and 
outside analysts can understand the results and the methods used. CBO 
has also increased public documentation of its modeling efforts--by 
publishing more appendixes and background reports, providing details 
about its analyses for nonexperts, and by publishing more working 
papers with technical descriptions for experts.
    The agency is actively exploring ways to provide additional 
information about its modeling that would be most useful to the 
Congress, such as furnishing further public documentation, presenting 
the sensitivity of budgetary effects to changes in key parameters of 
policy proposals, and writing accessible source code for computer 
programs used in analyses. Those tasks require considerable resources; 
to best allocate those resources, the agency is in the process of 
assessing which tasks are the most valuable.
    CBO will use such a multifaceted approach to enhancing the 
transparency of its modeling because that modeling--and CBO's analysis 
more broadly--is much more than the output of computer programs. It is 
primarily the identification of the main mechanisms through which 
proposed legislation would affect the budget; the assessment of which 
mechanisms would probably have effects important enough to quantify; 
and the integration of different types of research, on the basis of 
data from the past, to project responses in individuals' and 
institutions' behavior to changes in those mechanisms. That process 
generally differs for each estimate so that CBO can make the best use 
of different types of research to model the effects of a particular 
legislative proposal. One example is the agency's analysis of potential 
changes to premiums in Medicare Advantage. The effects of such a change 
on people's decisions to enroll in a private plan through that 
program--and thus on the Federal budget--would not simply be 
proportional to the size of the change, so CBO's modeling differs 
depending on whether proposed changes are small or large.
    Because the overall demand for CBO's work is high and its resources 
are constrained, the agency needs to balance requests to explain more 
about finished analyses with requests for new analyses and with its 
other responsibilities, such as regularly updating its baseline budget 
and economic projections. Those demands and constraints, and not any 
requirements written in law, are the main factors limiting public 
documentation, reporting of the effects of changes in key parameters, 
writing accessible computer code, and related activities.
    The Role of Transparency. When CBO completes a budget or economic 
projection, a cost estimate for a public piece of legislation, or 
another type of analysis, it makes the results of that analysis 
available to all Members of Congress, their staff, and the public. 
CBO's analysts spend a great deal of time meeting with interested 
Members of Congress and their staff to explain the details that 
underlie cost estimates. In its blog, CBO also highlights answers to 
questions that have frequently been raised by Members, sometimes 
explaining what the limitations of its analyses are and how new data 
and results from well-designed studies could help the agency better 
predict the potential effects of legislative proposals.\5\
---------------------------------------------------------------------------
    \5\ For example, see Noelia Duchovny, Eamon Molloy, Lori Housman, 
and Ellen Werble, ``Estimating the Effects of Federal Policies 
Targeting Obesity: Challenges and Research Needs,'' CBO Blog (October 
26, 2015), www.cbo.gov/publication/50877.
---------------------------------------------------------------------------
    Even though CBO devotes substantial time and energy to presenting 
its work as clearly and nontechnically as possible, the pace of 
Congressional action often requires the agency to produce analyses 
quickly. So the amount of explanation that can be provided when an 
estimate or analytic report is released is sometimes limited by the 
time available.
    Information About Models. CBO has made a variety of information 
available so that outside analysts can examine the basis for its 
estimates, and the agency intends to make more available in the future. 
For example, in June, CBO published a paper describing the simulation 
model that it uses to inform its baseline budget projections for the 
Pension Benefit Guaranty Corporation's multiemployer program.\6\ The 
paper explains the interest rates used, the way stock market returns 
are simulated, the role of plan-specific parameters, how they are 
calibrated by means of information from a plan's filings with the 
Internal Revenue Service, and so on.
---------------------------------------------------------------------------
    \6\ See Wendy Kiska, Jason Levine, and Damien Moore, Modeling the 
Costs of the Pension Benefit Guaranty Corporation's Multiemployer 
Program, Working Paper 2017-04 (Congressional Budget Office, June 
2017), www.cbo.gov/publication/52749.
---------------------------------------------------------------------------
    Another complex simulation model is the one that CBO uses to 
estimate how rates of coverage and sources of health insurance would 
change if various insurance options underwent alterations in 
eligibility criteria and subsidies and thus net cost. CBO has described 
the data underlying that model, which include information about the 
income, employment, health status, and health insurance coverage of a 
representative sample of individuals and families.\7\ The model also 
incorporates information from the research literature about people's 
and employers' responsiveness to price changes and about people's 
responsiveness to changes in eligibility for public coverage. CBO's 
publications explain how changes in coverage of different types depend 
on the difference in price between those types. In addition, those 
publications present the parameter values used to estimate the change 
in the probability of choosing coverage of a particular type with 
respect to a percentage change in price.\8\
---------------------------------------------------------------------------
    \7\ See Jared Maeda and susan Yeh Beyer, ``How Does CBO Define and 
Estimate Health Insurance Coverage for People Under Age 65?'' CBO Blog 
(December 20, 2016), www.cbo.gov/publication/52352.
    \8\ For additional information, see Congressional Budget Office, 
``Methods for Analyzing Health Insurance Coverage'' (accessed August 1, 
2017), www.cbo.gov/topics/health-care/methods-
analyzing-health-insurance-coverage.
---------------------------------------------------------------------------
    Most of CBO's cost estimates, however, do not involve simulation 
models. In those cases, the agency generally describes the building 
blocks of the estimate. In October 2016, for example, CBO estimated 
that the Veterans First Act would, among other provisions, authorize 
the Veterans Administration (VA) to place up to 900 veterans with 
severe service-connected disabilities in Medical Foster Homes (MFHs). 
Here is an excerpt from CBO's cost estimate:

        CBO estimates that half of the veterans eligible for this 
        program (about 450 individuals) would become residents of MFHs 
        as a result of the bill's enactment. For those veterans, VA 
        would pay for their living expenses, as well as the costs for 
        Home Based Primary Care services. We estimate that those 
        veterans would receive healthcare that would cost $9,000 per 
        year more than they would receive under current law because 
        providing care in the individual homes is costlier than 
        providing healthcare at VA medical facilities. Including the 
        costs for living expenses at the MFHs of $39,000 per year, we 
        estimate total costs per new resident of $48,000 per year. As a 
        result, total costs for new MFH residents would be about $22 
        million a year, CBO estimates.\9\
---------------------------------------------------------------------------
    \9\ See Congressional Budget Office, cost estimate for S. 2921, the 
Veterans First Act (October 24, 2016), page 17, www.cbo.gov/
publication/52133.

    Outside analysts with a different estimate of one component, such 
as the cost of care in the individual homes, can draw on that 
explanation to make their own calculations.
    How CBO Incorporates Feedback From Outside Analysts. CBO 
continually seeks feedback about its analytical efforts in order to 
ensure their effectiveness. For example, the agency has a Panel of 
Economic Advisers and a Panel of Health Advisers, which consist of 
experts with a wide variety of backgrounds and specialized knowledge 
who are selected to represent a range of views. The first of those 
panels meets twice a year to provide input about CBO's latest economic 
forecast and other issues, and the second meets annually to discuss key 
issues affecting the agency's projections and analyses and to examine 
new research in healthcare and healthcare financing.\10\ CBO also 
regularly consults with those experts and with others for guidance.
---------------------------------------------------------------------------
    \10\ For additional information about those meetings, see 
Congressional Budget Office, ``Agendas From Prior Meetings of CBO's 
Panels of Advisers'' (accessed August 1, 2017), www.cbo.gov/about/
processes/meeting-agendas.
---------------------------------------------------------------------------
    Furthermore, CBO's analysts regularly make presentations at 
conferences and elsewhere to obtain feedback and to answer questions 
about the agency's analytical methods. For example, CBO has devoted 
significant effort to developing and enhancing analytical tools for 
assessing the macroeconomic effects of fiscal policies and the feedback 
of those effects into the budget. The agency has engaged in dialogue 
about that effort at meetings of numerous professional associations and 
at universities (in addition to obtaining input from its Panel of 
Economic Advisers).\11\
---------------------------------------------------------------------------
    \11\ For links to CBO's presentations at those meetings and 
universities, see Congressional Budget Office, ``Dynamic Analysis'' 
(accessed August 1, 2017), www.cbo.gov/taxonomy/term/1632/
latest?type=5.
---------------------------------------------------------------------------
                                 ______
                                 
               Question Submitted to Hon. Gene L. Dodaro
               Question Submitted by Senator Marco Rubio
    Question. Thank you for your work in 2016 that shed light on the 
emergence of the Zika virus and the need for the public to have access 
to information and resources on the disease.
    GAO's research on funding to combat this terrible disease has been 
essential in justifying congressional support to the CDC and FDA.
    Given continued uncertainty surrounding the total number of 
infections and full spectrum of outcomes, what efforts should we 
prioritize to better understand, and thus better fight, the Zika virus?
    Answer. Currently available Zika virus prevention methods include 
various mosquito control methods, guidance on safe sex practices if a 
person has or is suspected of having Zika virus or has traveled to an 
area with high rates of local transmission, and guidance for travel to 
areas affected by Zika virus. Although at present no vaccine has been 
approved by the Food and Drug Administration (FDA) to prevent Zika 
virus disease, several vaccines are in different development phases. 
Because Zika virus disease cannot yet be prevented by drugs or 
vaccines, mosquito control is critical in mitigating risks associated 
with this disease.
    We have previously described different types of mosquito control 
methods used in the United States.\1\ The Federal Government has a 
limited role in implementing mosquito control because mosquito control 
efforts are implemented at the State and local levels. The Federal 
Government faces a number of challenges in supporting these mosquito 
control efforts.
---------------------------------------------------------------------------
    \1\ GAO, Emerging Infectious Diseases: Actions Needed to Address 
the Challenges of Responding to Zika Virus Disease Outbreaks, GAO-17-
445 (Washington, DC: May 23, 2017); Emerging Infectious Diseases: 
Preliminary Observations on the Zika virus outbreak, GAO-16-470T 
(Washington, DC: March 2, 2017).
---------------------------------------------------------------------------
    In our May 2017 report, we identified four challenges to the 
Federal Government's efforts to support mosquito control activities: 
(1) the timing of the availability of funds and sustaining expertise, 
(2) communication of data about mosquito distribution, (3) linking the 
effects of mosquito control to disease outcomes, and (4) limited 
information about mosquito control entities.
    We identified several challenges in regards to epidemiology of Zika 
virus that should be prioritized including determining the total number 
of infections; the biological mechanisms, risks, reasons for geographic 
differences, and full spectrum of outcomes associated with maternal-
fetal transmission; the presence and duration of the virus in different 
bodily fluids; the role of prior Zika virus infections or exposure to 
other related flaviviruses; and the full spectrum of outcomes of Zika 
virus infection. In addition, Zika virus case counts obtained from the 
national disease surveillance system underestimate the total number of 
Zika virus infections over a specified time period.
    The causes of this underestimate include: an infected person may 
not seek medical care for a variety of reasons such as having only mild 
or no symptoms, an infection may not be diagnosed because of 
limitations in Zika virus diagnostic testing, and surveillance 
reporting can be incomplete for a variety of reasons. CDC, the Counsel 
of State and Territorial Epidemiologists (CSTE), and State and local 
public health agencies faced several challenges in implementing 
surveillance for Zika virus and its associated health outcomes. Efforts 
that should be prioritized to better understand Zika virus surveillance 
include establishing early case definitions, timely communication of 
critical information, and interoperability between surveillance 
databases. We identified key challenges to Zika virus epidemiological 
research: study designs needed for establishing association and 
causality challenged linking Zika virus and associated health outcomes, 
and insufficient data and lack of developed models challenged 
prediction of the spread of the virus. Efforts to overcome these 
challenges should be prioritized.
    Zika virus diagnostic tests varied in their ability to detect the 
Zika virus and provide accurate results. In developing the diagnostic 
tests, manufacturers faced challenges in several areas that should be 
prioritized, including access to clinical samples and other authorized 
diagnostic tests for comparison purposes. Users of the tests also 
encountered challenges, including determining the most accurate test to 
use, and obtaining equipment needed to conduct the tests. Some 
manufacturers we interviewed raised concerns about the difficulty in 
developing diagnostic tests that met the Food and Drug Administration's 
(FDA) requirements for Emergency Use Authorization and some users 
expressed concerns about selecting tests amongst those authorized.
    We also determined that CDC and FDA did not follow some of their 
guidance in communicating with users of diagnostic tests, including 
providing clear information that would have enabled users to more 
easily compare performance across different tests.
    Our May 2017 report made several recommendations to the Department 
of Health and Human Services (HHS) to ensure that information about 
different diagnostic tests is more readily comparable and available, 
establish a transparent process for CDC to provide diagnostic tests to 
manufacturers in the final stages of diagnostic test authorization, and 
provide additional details to better inform mosquito control experts 
and the general public.\2\ Currently, these recommendations are still 
open and the department stated it is in the process of addressing these 
recommendations.
---------------------------------------------------------------------------
    \2\ GAO, Emerging Infectious Diseases: Actions Needed to Address 
the Challenges of Responding to Zika Virus Disease Outbreaks, GAO-17-
445 (Washington, DC: May 23, 2017).
---------------------------------------------------------------------------
    The Zika supplemental appropriation funds provided for in the Zika 
Response and Preparedness Appropriations Act, 2016 (Public Law No. 114-
223, div. B) must be obligated by the end of the fiscal year 2017 
(i.e., September 30, 2017). The Act also includes a provision that GAO 
conduct oversight of the activities supported with funds appropriated 
by the Act, which we have begun.

                           SUBCOMMITTE RECESS

    The next hearing of this subcommittee will be held on 
Thursday, June 29, at 10:15 a.m., Dirksen room 124. We will 
hear testimony from Capitol Police and the Senate sergeant-at-
arms. It is the rescheduled meeting that Senator Murphy had 
talked about before for their fiscal year 2018 budget request. 
Immediately following that public hearing, which will be fairly 
short, it will be followed by a closed session to evaluate 
security needs for those same two agencies. Until then, this 
committee stands adjourned.
    [Whereupon, at 4:19 p.m., Wednesday, June 21, the 
subcommittee was recessed, to reconvene at 10:15 a.m., 
Thursday, June 29.]

                                APPENDIX

                              ----------                              



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
